<html>
<title> - A REVIEW OF CRUISE SHIP SAFETY AND LESSONS LEARNED FROM THE COSTA CONCORDIA ACCIDENT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                     A REVIEW OF CRUISE SHIP SAFETY 
                      AND LESSONS LEARNED FROM THE 
                        COSTA CONCORDIA ACCIDENT 

=======================================================================

                                (112-74)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 29, 2012

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

73-104 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

















             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey            Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
    Tennessee
                                ------                                7

        Subcommittee on Coast Guard and Maritime Transportation

                FRANK A. LoBIONDO, New Jersey, Chairman
DON YOUNG, Alaska                    RICK LARSEN, Washington
HOWARD COBLE, North Carolina         ELIJAH E. CUMMINGS, Maryland
ANDY HARRIS, Maryland                CORRINE BROWN, Florida
FRANK C. GUINTA, New Hampshire       TIMOTHY H. BISHOP, New York
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              MICHAEL H. MICHAUD, Maine
JEFFREY M. LANDRY, Louisiana,        NICK J. RAHALL II, West Virginia
  Vice Chair                           (Ex Officio)
JOHN L. MICA, Florida (Ex Officio)

























                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                               TESTIMONY
                               Panel One

Vice Admiral Brian M. Salerno, Deputy Commandant for Operations, 
  United States Coast Guard......................................     9

                               Panel Two

Sameer and Divya Sharma, Costa Concordia survivors...............    37

                              Panel Three

Christine Duffy, President and CEO, Cruise Lines International 
  Association, accompanied by Michael Crye, Executive Vice 
  President, Cruise Lines International Association..............    47
Captain George Wright, Senior Vice President, Marine Operations, 
  Princess Cruises, accompanied by Vicky Rey, Vice President, 
  Guest Services and Support, Carnival Cruise Lines..............    47
Captain Evans Hoyt, Master of Norwegian Spirit and Pride of 
  America, Norwegian Cruise Lines................................    47
Brian W. Schoeneman, Legislative Director, Seafarers 
  International Union............................................    47

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Vice Admiral Brian M. Salerno....................................    69
Sameer and Divya Sharma..........................................    97
Christine Duffy..................................................   100
Captain George Wright............................................   114
Captain Evans Hoyt...............................................   122
Brian W. Schoeneman..............................................   131

                       SUBMISSIONS FOR THE RECORD

Hon. Rick Larsen, a Representative in Congress from the State of 
  Washington, request to submit the following written statements 
  from:

        Dennis Young, International Longshore and Warehouse Union     5
        Geoffrey Scimone, ``Trapped in Paradise''................    32
United States Coast Guard, inserts for the record............20, 27, 28
Hon. Doris O. Matsui, a Representative in Congress from the State 
  of California, request to submit letter from Kendall Carver, 
  Chairman, and Jamie Barnett, President, International Cruise 
  Victims Association, Inc., February 27, 2012...................    22
Hon. Mazie K. Hirono, a Representative in Congress from the State 
  of Hawaii, request to submit the following article: Tom Hals, 
  Andrew Longstreth, and Steve Stecklow, ``Insight: Laws Leave 
  Cruise-ship Victims at Sea,'' Reuters, February 21, 2012, 
  http://www.reuters.com/assets/print?aid=USTRE81K06J20120221....    63
Vice Admiral Brian M. Salerno, Deputy Commandant for Operations, 
  United States Coast Guard, responses to questions from Hon. 
  Rick Larsen, a Representative in Congress from the State of 
  Washington; Hon. Doris O. Matsui, a Representative in Congress 
  from the State of California; and Hon. Don Young, a 
  Representative in Congress from the State of Alaska............    77
Christine Duffy, President and CEO, Cruise Lines International 
  Association, responses to questions from Hon. Rick Larsen, a 
  Representative in Congress from the State of Washington; and 
  Hon. Doris O. Matsui, a Representative in Congress from the 
  State of California............................................   104
Captain George Wright, Senior Vice President, Marine Operations, 
  Princess Cruises, responses to questions from Hon. Rick Larsen, 
  a Representative in Congress from the State of Washington; and 
  Hon. Doris O. Matsui, a Representative in Congress from the 
  State of California............................................   118
Captain Evans Hoyt, Master of Norwegian Spirit and Pride of 
  America, Norwegian Cruise Lines, responses to questions from 
  Hon. Rick Larsen, a Representative in Congress from the State 
  of Washington; and Hon. Doris O. Matsui, a Representative in 
  Congress from the State of California..........................   128

                        ADDITIONS TO THE RECORD

Terry Lynn Carson, written testimony.............................   136
Justin Charles Evens, Costa Concordia survivor, written testimony   137
Richard Wayne Sanford, P.E. Department Chair, Anderson High 
  School, written testimony......................................   139

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                   A REVIEW OF CRUISE SHIP SAFETY AND
                     LESSONS LEARNED FROM THE COSTA
                           CONCORDIA ACCIDENT

                              ----------                              


                      WEDNESDAY, FEBRUARY 29, 2012

                  House of Representatives,
                    Subcommittee on Coast Guard and
                           Maritime Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met pursuant to notice at 10:02 a.m. in 
Room 2167, Rayburn House Office Building, the Hon. Frank 
LoBiondo (Chairman of the subcommittee) presiding.
    Mr. LoBiondo. Good morning. The subcommittee will come to 
order. To begin with I would like to yield to Mr. Larsen for a 
unanimous consent request.
    Mr. Larsen. Mr. Chairman, I ask unanimous consent that 
Congresswoman Doris Matsui be allowed to assume the dais and 
participate as a member of the subcommittee for this hearing.
    Mr. LoBiondo. Without objection, so ordered.
    The subcommittee will now proceed. Before we start out with 
the topic of the hearing, I want to acknowledge the terrible 
tragedy that the Coast Guard suffered last night. For those of 
you who may not be aware, a helicopter went down in Alabama 
that was on a training mission, and there was a tragic loss of 
one life that we know about and three remaining Coast Guard 
personnel that are missing.
    Our thoughts and prayers go out to the families and to the 
entire Coast Guard family for what they are suffering and going 
through. And we all know this is one of the hazards that they 
face, but this is the reality that we are tragically never 
wanting to hear about.
    We expect that the hearing will take a little bit of time, 
so I am going to ask the cooperation of the Members that we 
will limit the opening statements to myself and Mr. Larsen, and 
we will welcome them to make any statements they may want when 
we can get to them in the order that we normally do. The 
subcommittee is meeting this morning to review the cruise 
vessel safety in the wake of the Costa Concordia accident on 
January 13th. The Costa Concordia struck a rock off the Italian 
coast.
    To date, the accident has claimed the lives of at least 25 
individuals, and 7 individuals remain unaccounted for, 
including 2 American citizens. I am sure I speak for all of us 
when I express our condolences to the families and to the 
victims. Our goal today is to help prevent a similar accident 
from occurring in U.S. waters, or aboard a cruise vessel which 
calls on American ports. As such, we will review current safety 
regulations to ensure that they are adequate.
    I look forward to hearing how international safety 
standards performed in this incident, whether the standards 
were followed and whether U.S. safety regulations are different 
or sufficient to prevent a similar accident here within our 
waters. We have several witnesses from the cruise industry 
today, and I want to applaud the cruise industry for their 
recent decision to voluntarily change crew's routine and 
conduct regarding the abandoned ship muster drill to make it 
prior to sailing.
    However, our understanding is that the efforts to abandon 
ship aboard the Costa Concordia were delayed and there was 
possible confusion with the crew and their direction of 
passengers. And we'd like to hear a little bit more from the 
industry about what steps are being taken to improve the 
performance during emergency situation.
    Finally, I am interested in how far the Coast Guard and 
industry have come in implementing the Cruise Vessel Safety 
Security Act of 2010. The Act largely deals with criminal 
activity aboard cruise vessels; but, nonetheless, it is an 
issue that impacts passenger safety, which is the primary focus 
of this hearing.
    The cruise industry impacts millions of Americans annually. 
In 2010 more than 10 million U.S. residents embarked on a 
cruise. It's a huge number. This activity generated more than 
$37 billion for the U.S. economy and sustained nearly 330,000 
American jobs. The cruise industry and the Coast Guard must 
continue to work together to ensure that taking a cruise 
remains one of the safest and most enjoyable ways to travel.
    I want to thank the witnesses for appearing today and we 
want to note on behalf of the subcommittee that we understand, 
very clearly, that there's an ongoing investigation; and, as 
such, we understand that the witnesses today may not be able to 
answer all the questions we have about what happened, and 
clearly due to the nature of investigation and legalities that 
are involved with this.
    We will continue to monitor the investigation and look 
forward to a full accounting of what happened when the 
investigation is complete and that information becomes 
available. In the interim, we will look for ways to improve 
passenger safety based on what we know so far. With that I'd 
like to yield to Mr. Larsen.
    Mr. Larsen. Mr. Chairman, thank you, and as well allow me 
to express my prayers and thoughts to the women and men of the 
U.S. Coast Guard and the families of the Coast Guard men who 
have passed or are missing in the recent accident. I want to 
thank you for scheduling the morning's hearing to delve into 
the safety of cruise vessels in light of the January 13th, 
2012, grounding of the Italian cruise ship Costa Concordia off 
the coast of Italy.
    Before I begin my remarks, as well, Mr. Chairman, I would 
like to extend my condolences to the families of the 25 
passengers and crewmembers who died as a result of this tragic 
marine casualty, and also the seven other families for whom 
their loved ones remain unaccounted. I want to welcome Mr. and 
Mrs. Sameer and Divya Sharma, two passengers aboard the Costa 
Concordia who traveled to Massachusetts on short notice to be 
with us today as well.
    Mr. Chairman, the sea is beautiful and most often benign; 
nevertheless, it remains relentless and an ever present threat 
to those who travel over its depths at times. The Costa 
Concordia incident reminds us that we cannot be complacent 
while at sea. The ocean remains capable in a moment of 
disabling and sinking even our most modern and technologically 
advanced ships.
    It will be at least a year before the Italian Government 
completes its Marine Casualty Investigation and determines the 
exact circumstances that caused the Concordia to run aground; 
but, there's no reason for us to delay efforts to reassess the 
present regulatory regime for cruise vessels in the United 
States and internationally.
    If anything, reports this week of another cruise ship, the 
Costa Allegra, adrift in pirate-infested waters in the Indian 
Ocean due to an onboard fire should further focus our 
attention. So, I welcome this opportunity. We need to ensure 
that cruise ships operating in the U.S. waters meet or exceed 
all standards for safe design, construction, manning, and 
operation.
    The traveling public expects no less a standard. After all, 
all forms of transportation, be it plane, train, automobile or 
ship, are successful only to the extent that public perceives 
them to be safe and reliable to use. And, in general, the 
cruise industry is considered a safe, leisure travel option by 
most travelers. It also happens to generate substantial 
economic benefits in the United States.
    According to 2010 information, cruises arriving and 
departing from U.S. ports generated $18 billion in direct 
spending on goods and services and provided $37.85 billion in 
total economic benefits in the U.S. And, importantly, over 
329,000 jobs were generated in the U.S. by cruise industry 
expenditures. The Pacific Northwest where I am from is a 
growing market for the cruise industry. It is headquarters for 
Holland America Line and One Star Cruise Line. Furthermore, it 
is creating jobs and generating direct spending in Washington 
State.
    So, clearly, there is a lot at stake economically; but, 
also at stake are the lives and the safety of the more than 11 
million passengers in 2011 that embarked from U.S. ports on 
cruise vessels with nothing but the expectation of safe passage 
and a trove of wonderful vacation memories. The Costa Concordia 
accident provides us with a new impetus to ask tough questions 
to determine whether we remain vigilant or whether we have 
become complacent in our efforts to regulate the safety of the 
cruise industry.
    For instance, are the international standards established 
under the International Convention of the Safety of Life at Sea 
and the International Convention on Standards of Training, 
Certification and Watchkeeping for Seafarers sufficient to 
ensure that cruise vessels are built, operated and manned to 
the highest practical safety standards? Are training and 
certification requirements for seafarers under these 
conventions, especially for emergency evacuation and crisis 
management, adequate in light of a greatly increased size and 
complexity of newly constructed cruise vessels?
    And, also, are passengers boarding cruise ships given 
adequate indoctrination concerning emergency evacuation 
procedures such as muster drills? And, if not, how might this 
be improved? These are just some of the questions that 
immediately come to mind. I would be interested in hearing from 
the Coast Guard and the cruise industry regarding their 
respective progress as well as in implementing new requirements 
established pursuant to the Cruise Vessel Safety and Security 
Act.
    In closing, the best way to ensure long-term economic 
health of the cruise industry in the U.S. is to ensure they are 
appropriately regulated and that the American public 
justifiably considers a cruise vacation a safe and secure form 
of leisure travel. With that, Mr. Chairman, I yield back, but I 
have one additional unanimous consent request, if I may. It is 
the unanimous consent request to put into the record the 
statement from the International Longshore and Warehouse Union.
    Mr. LoBiondo. Without objection, so ordered.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. LoBiondo. Thank you, Mr. Larsen.
    I would like to recognize the chairman of the full 
Committee on Transportation and Infrastructure, Mr. Mica.
    Mr. Mica. Well, first of all, thank you for yielding to me 
and also to you and Mr. Larsen for complying with the request 
to conduct this hearing this morning, and I felt as chair of 
the full committee that it was incumbent upon our committee and 
this subcommittee to review both this incident and where we are 
on cruise ship safety in light of this and other incidents. But 
I must first also identify my remarks with others today who 
have expressed their sympathy to and condolences to the United 
States Coast Guard.
    We have learned in the last 24 hours, again, the high price 
that's been paid by the men and women that serve us every day, 
making certain that we are safe and secure in the seas and 
waterways. And, again, I am incredibly saddened to hear of your 
loss, and our prayers and thoughts are with the families. And, 
as Mr. Larsen said, the same holds true for cruise ship 
passengers and crew and others that were lost in the Concordia 
tragedy.
    Some may say, well, maybe we shouldn't hold this, the 
hearing, and I said, ``No. I think that it is very important 
that we examine what took place and where we are as far as 
cruise ship safety.'' You know, it is sort of a warning signal 
when you have a fairly new mega liner hit rocks and suddenly 
sink. In light of that incident, again, there will be 
investigation as to responsibility. But our responsibility in 
the United States Congress is to make certain that every 
passenger who boards a cruise ship, particularly from our 
shores, and also U.S. citizens who board internationally, have 
the very safest experience possible, and that this Congress has 
provided and updated the laws, the regulations and work with 
the agencies like the Coast Guard to make certain that those 
protections are in place.
    First of all, the cruise industry, I think, is one of the 
most incredible entrepeneurial achievements by the private 
sector that I have seen in my lifetime, probably my great 
grandparents came by steerage and maybe at the turn of the 
century, for so many decades, a cruise ship experience or 
passenger by sea who cruised for pleasure was limited to the 
rich and famous. And here, entrepeneurs have made what was once 
a very limited experience for a very few people one of the most 
pleasurable, enjoyable experiences of their lifetime. And I 
have been on cruises that I have seen the joy people have.
    They save their hard-earned money all year to go on a 
cruise, and it's an incredible experience that makes some of 
their dreams come true. By the same token, though, we are very 
dependent now on this as an industry. My State of Florida is 
one of the premier cruise States and the departure and arrival 
locations we have ports from. And I was at Port Canaveral last 
week, I believe it was, touring there, looking at some of what 
was going on. But the economic impact of this industry is just 
huge, not to mention the great experience, pleasure, and 
vacation it affords folks.
    But, again, we have a responsibility to make certain that 
that experience is safe. Some of the responsibility is not just 
the United States. It is also to international organization. 
So, I intend and I would ask both ranking member and the 
chairman to take from this hearing information and we need to 
make certain that our international organizations that also set 
standards are updating those standards. And we can't do this 
just by ourselves or put in place laws that just protect 
Americans from our ports, but we have a responsibility to work 
with the international organizations to make certain that they 
also update their standards.
    So that being said, we also have a new era of cruise ships. 
Some of these cruise ships have 5,000-6,000 people. I believe 
this one had over 4,200 people onboard. We also saw too a 
cruise ship and this cruise ship was, I think, the length of an 
aircraft carrier. That cruise ship when it hit the rocks and it 
tilted over, it certainly got everybody in the world's 
attention to what can happen with a mega cruise liner and we 
are very fortunate in a way that the cruise ship landed on some 
land and rocks. If it had sunk, the number of deaths would have 
been incredible.
    The other thing that was astounding to me having been on 
cruise ships, when you go over sideways, everyone thinks of the 
Titanic in the way it sank or a ship going down in the sea. 
But, when a megaliner tilts over and turns over, immediately 
you have disabled--in that case--probably half of the safety 
evacuation vessels.
    We may need to look at some different types of equipment 
for different types of megaliners and different types of safety 
procedures, including the practice and drill there were 
questions raised about. So I think we can take from this 
hearing some positive improvements; unfortunately, at great 
personal loss to some families. And hopefully we can make this 
experience, which we have relied on and that we have grown to 
take for granted, an even safer experience.
    So, again, I salute the Coast Guard for their fine work and 
look forward to their recommendations. The other witnesses that 
have been assembled, and Chairman LoBiondo and Mr. Larsen, 
thank you so much, and I yield back.
    Mr. LoBiondo. Thank you, Mr. Chairman. Our first witness 
today is Coast Guard Vice Admiral Brian Salerno, who is the 
deputy commandant for operations.
    Welcome, Admiral, you are recognized for your statement.

 TESTIMONY OF VICE ADMIRAL BRIAN M. SALERNO, DEPUTY COMMANDANT 
           FOR OPERATIONS, UNITED STATES COAST GUARD

    Admiral Salerno. Good morning, Chairman Mica, Chairman 
LoBiondo, Ranking Member Larsen and distinguished members of 
the committee. Thank you for the opportunity to appear before 
you and discuss issues related to cruise ship safety.
    Thank you, especially, for your expression of sympathy for 
the Coast Guard's loss last evening. We are a small Service and 
events like that touch us all very deeply. So we very much 
appreciate your acknowledgment of that this morning.
    Every year, over 170 large passenger ships operate from 
United States ports and they embark approximately 11.5 million 
passengers. The safety of these passengers and the crews which 
operate these vessels has been a longstanding focus of the 
Coast Guard. Every year we conduct thorough examinations of 
these vessels to ensure that they comply with all United States 
and international safety, security, and environmental 
standards, and ensure that their crews are well trained.
    In my role as deputy commandant for operations I am 
responsible for setting the safety, security, and environmental 
standards, for U.S.-flag, commercial vessels and for foreign-
flag vessels which visit our ports. I am responsible for 
conducting investigations when accidents or violations of our 
standards occur, and I am responsible for the policy regarding 
the conduct of search and rescue.
    For all of these reasons the recent casualty involving 
Costa Concordia is of great interest to us. We are certain that 
there will be much to learn from this casualty, and we are open 
to the possibility that our regulations and the internal 
regulations produced by the International Maritime organization 
may need to be strengthened based on the outcome of the 
investigation being led by the Italian Government.
    Accordingly, we have offered to assist in Italy's 
investigation as an interested party due to the significant 
number of American citizens who were onboard, including two who 
remain missing. This was a tragic event and all of us in the 
Coast Guard extend our heartfelt condolences to the families 
and friends of the missing and the lost.
    This year marks the 100th anniversary of the loss of the 
Titanic; and, despite a century of technological improvements 
in maritime passenger safety, the Costa Concordia accident 
reminds us that all of our new technologies as beneficial as 
they are cannot be taken for granted that they are only as good 
as the human systems that operate and maintain them, and the 
regulatory regimes which enforce the rules. To improve 
passenger vessel safety on a global scale, the Coast Guard 
leads the U.S. efforts at the international maritime 
organization where world maritime safety standards are set.
    The focus on international standards is important, because 
just as in the Costa Concordia case, American citizens are 
frequently passengers on vessels, which otherwise have no U.S. 
connection. As the agency responsible for verifying the safety 
of foreign vessels, which visit our ports, the Coast Guard has 
established the most rigorous ports they control program in the 
world.
    All foreign-flag cruise ships which embark passengers in 
the United States must undergo a control verification exam 
before they are permitted to operate. This examination is 
comprehensive in nature. It includes pre-construction concept 
reviews, examinations of the hull and test of safety systems 
during construction, and followed by annual and periodic 
examinations for however long the vessel operates from U.S. 
ports.
    It is during these exams that we also verify compliance 
with environmental standards and security procedures, including 
those procedures required under the Cruise Vessel Safety and 
Security Act. In 2009 the Coast Guard established the cruise 
ship National Center of Expertise. This center is the focal 
point for providing Coast Guard Marine inspectors with the 
indepth technical knowledge of cruise ship design and 
operations and serves as an indicator of how seriously we take 
our responsibilities.
    One of the greatest safety challenges we could potentially 
face is a mass rescue operation involving cruise ship. While we 
worked diligently with the cruise lines to minimize the risk of 
such an event occurring, we have also developed and continually 
refined our search and rescue and mass rescue contingency 
plans. We undertake this level of emergency planning in 
conjunction with the cruise industry. We hold copies of cruise 
ship emergency plans, and we periodically test them to ensure 
seamless coordination in the event of an actual emergency.
    Over the last 5 years the Coast Guard has conducted 36 mass 
rescue exercises involving passenger vessels. Each Coast Guard 
district has specific positions authorized by Congress to focus 
on this responsibility. As mentioned, we do not have the facts 
on the Costa Concordia accident; however, as an immediate 
measure, I have directed Coast Guard field inspectors to 
witness passenger muster drills required by the International 
Safety of Life At Sea Convention, whenever they are onboard for 
an annual or periodic examination. This contrasts with the 
SOLAS requirement in place internationally for a muster drill 
within 24 hours of leaving port.
    I am also pleased that the cruise industry itself has 
announced new emergency drill policies requiring mandatory 
muster drills for embarking passengers prior to departure from 
port, again exceeding the international requirement. In 
closing, I want to assure the committee that the Coast Guard 
views the safety of passengers as its highest maritime safety 
priority. We have the best port State-controlled program in the 
world for verifying the safety of vessels embarking in our 
ports. And, through the IMO we work diligently to enhance the 
safety of U.S. passengers regardless of where they embark a 
vessel anywhere in the world.
    Meanwhile, we have taken measures to implement the Cruise 
Ship Safety and Security Act of 2010 and we are engaged in 
additional regulatory efforts to give full effect to that law 
and to enhance the personal protection of passengers on cruise 
ships. The Coast Guard looks forward to continued cooperation 
with this committee, with passenger victim groups and with the 
passenger industry itself to maximize cruise vessel safety, 
security and environmental protection.
    Thank you, again, for the opportunity to testify today, and 
I will be pleased to answer your questions.
    Mr. LoBiondo. Thank you, Admiral. Your statement actually 
covered a number of questions that I was going to pose, but a 
couple for you. Does the Coast Guard have any plans to conduct 
an independent investigation on the loss of the two American 
lives?
    Admiral Salerno. Sir, we are conducting an investigation. 
In fact, we are currently embarked and interviewing, the 
process of interviewing all of the U.S. citizens who were 
passengers on the Costa Concordia. We are about 30 percent 
complete in that process.
    There is a standard series of questions that we are asking 
each of the passengers. We have invited the National 
Transportation Safety Board to participate with us in that, and 
from that we expect to develop a picture of what took place 
onboard and to truly understand some of the human factors that 
were, I think, critical in the unfolding of this casualty.
    Mr. LoBiondo. Admiral, we would be very interested when 
that is concluded, if you are able to share those results with 
us, it would be very helpful to the subcommittee.
    Admiral Salerno. Yes, sir. We would be happy to share that 
information.
    Mr. LoBiondo. You may have commented on this. I just wanted 
to just make sure I understand. Has the Coast Guard reached out 
to Italian authorities to offer your assistance with their 
investigation?
    Admiral Salerno. Yes, sir, we have. The Italian authorities 
have indicated that they will welcome our participation. There 
are a number of other countries that have also sought the same 
status as interested parties, and the Italian Government has 
indicated they will do that, extend that same courtesy to them. 
Incidentally, with the more recent event on the Costa Allegra 
we have asked for the same status as an interested party, and 
we fully expect to be granted that status as well.
    Mr. LoBiondo. And do you have any reason to believe that 
the Italian authorities would not share their final results of 
their investigation, or do you believe they will share with us?
    Admiral Salerno. We believe they will share with us. All 
the indications are that there will be full disclosure.
    Mr. LoBiondo. OK. Thank you. That is all for me, right now, 
Admiral.
    Mr. Larsen?
    Mr. Larsen. Thank you, Mr. Chairman.
    Admiral, as you know, we have had the Concordia and the 
Allegra here. Does the Coast Guard have any history of 
examining these vessels for any reason, these particular 
vessels?
    Admiral Salerno. The Concordia, initially, was intended for 
service in the United States but the plans changed very early 
on. So we commenced an initial examination overseas. It was 
never completed, because the company's plans changed, and that 
ship has never come to the United States. The other vessel, to 
our knowledge, we have not had any contact with that vessel at 
all, at all.
    Mr. Larsen. With regards to the invitation from the Italian 
Government, is that process by invite only, or is there any 
formal role in this case because there are U.S. citizens 
involved and so we can inject ourselves, or is it by invite?
    Admiral Salerno. It is based on a casualty code put forward 
by the International Maritime organization, which has 
procedures for cooperation. And so we are using the provisions 
of that code to make the approach to the Italian Government, 
and they have responded accordingly.
    Mr. Larsen. OK. So it is not driven by Italian Government 
or by U.S. Coast Guard. It is driven by the IMO standards that 
are in place.
    Admiral Salerno. It is an IMO standard. We as an interested 
party did request and the Italian Government has responded.
    Mr. Larsen. That's all part. OK. Remind me why we are an 
interested party in the Allegra.
    Admiral Salerno. Because there are eight U.S. citizens who 
were passengers onboard that vessel.
    Mr. Larsen. OK. Good. Can you tell me a little bit about 
the Center for Excellence and how it operates? Does that 
operate more in a school setting? Is it a seminar setting? How 
is that focused?
    Admiral Salerno. It actually has multiple functions. It is 
first and foremost designed to train our marine inspectors from 
around the country. So, wherever we have cruise ship activity, 
including the Pacific Northwest, inspectors would go to Miami 
where the center is located, receive very indepth training with 
Coast Guard specialists and with industry partners.
    Industry provides vessels for our examinations so that we 
can not only have some classroom instruction, but hands-on, 
real-life, go through the ship, understand in detail how all 
the systems work. So it is a cooperative effort that we 
undertake with the industry; and, in fact, we have had a number 
of industry members go through the center as well, so they can 
better understand Coast Guard expectations.
    That informs the industry as to what we look for in a 
safety culture, onboard the ship, the kinds of systems that we 
pay particular attention to so that they are always maintained, 
and they are integrated into the ship's safety management 
system.
    Mr. Larsen. With regards to the mass rescue exercises, how 
many did you say you have conducted? In your oral testimony, 
you put a number.
    Admiral Salerno. To get that right, let me get the number. 
It's 36, and they are conducted in every Coast Guard district. 
All passenger vessels, so not all of them are cruise ships. 
Some of them are high-capacity passenger vessels that are 
smaller than what we typically think of as a cruise ship.
    Mr. Larsen. Like a Victoria clipper?
    Admiral Salerno. Exactly. So we do mix it up. They operate 
a little bit differently; but, each one of them poses unique 
risks, so we exercise all different types of ships all around 
the coast in every district.
    Mr. Larsen. OK. I think for now that is good, Mr. Chairman. 
I know we have further questions on our side, so I will yield 
back.
    Mr. LoBiondo. Thank you, Mr. Larsen.
    Mr. Mica?
    Mr. Mica. Thank you, Admiral. That is interesting. Your 
last name is Salerno, and my family sailed from Salerno when 
they came to the United States. And I will be in Salerno on 
Easter with some of them, but good to have you hear; and, 
again, thank you so much for your service. I just love the U.S. 
Coast Guard.
    You know, they never come and lobby me. Their pay is a 
small portion of what some of the other Federal folks earn. 
They never pick at my office. They are just wonderful folks to 
deal with and they do such a great job I can't say enough about 
what you do. But I have got a couple of questions.
    The muster drill thing, you know, right now we are all 
dealing with anecdotal accounts, and we will hear some from the 
actual passengers. And I think that's great that we bring them 
in. This is a pretty big ship, but there are even bigger ships 
out there. Is the muster drill and the lifeboat safety drill 
currently--I guess it is a 24-hour requirement. Do you think 
that is adequate?
    I know many of the cruise ships have upped that to a much 
shorter time when folks board. Should that be updated by U.S. 
regulation and international law?
    Admiral Salerno. Well, we have certainly made it a 
requirement as part of our examinations to witness that trail, 
and I think that is almost a reasonable outcome from what we 
are seeing from this casualty. The cruise lines themselves have 
made that a voluntary practice within the United States. I 
believe that may apply internationally as well that they can 
probably fill you in on that.
    Mr. Mica. Do you think it needs to be looked at?
    Admiral Salerno. I do. I think it needs to be looked at.
    Mr. Mica. Again, we would like to take your recommendation. 
I don't know if it needs to be in law, but maybe in regulation. 
I don't know if it needs to be in law, but maybe in regulation, 
and then also to the international organizations. So we have 
the best possible standard for that drill, because the safety 
drill is very important in people knowing what to do, and maybe 
revising it a little bit with the mega liners. Again, these are 
massive ships and multistoried.
    The other thing, too, when I saw the ship go over, I guess 
the ship is now that the lifeboats and safety devices are 
geared to a 20-degree tilt. That might be something else we 
want to look at is I think it went to 35. The ship is still, 
you know, on its side. If it had been in deep water, that puppy 
would have gone down pretty dramatically.
    There would have probably been a much greater loss of life; 
and, what stunned me again is probably half of your lifeboats 
and your safety devices are on that side, so they would have 
been wiped out. And they would have to account for maybe 2,000 
or 1,500 of those passengers who would have no way--maybe the 
life vest, but we heard problems with that too.
    So we may want to look at that, and, you know, in the past 
they put the life vests in the cabin or someplace like that, 
maybe working with the industry to see, again, availability of 
both the lifeboat vessel which would take folks off. And most 
seas--well, I guess the Italian sea at that time wasn't that 
cold. But, you get into frigid waters, the survival rate drops 
pretty dramatically. So I think we need to look at that in 
light of the size of these, again, these mega cruise liners. 
Would you agree?
    Admiral Salerno. Yes, sir. I think there are two broad 
categories of inquiry here. What are the technological 
standards that you just mentioned? We need to take a hard look 
in light of this casualty. Are the standards correct? Did the 
equipment function in accordance with the standards, and are 
the standards sufficiently rigorous?
    I think that is one question. The other is the human 
factors, you know, crew performance: training, the ability to 
operate under pressure; all of that needs to be looked at as 
well, so two buckets.
    Mr. Mica. Finally, let me say this. You know. These 
hearings are great and we do learn things from the hearings. We 
will learn things today, and I would ask the ranking member, 
Mr. Larsen, and also Mr. LoBiondo.
    What I would suggest we do as a followup is let's convene a 
roundtable with the Coast Guard and others, and then let's get 
their recommendations. And what they can cover by regulation, 
we will work with them on. If we need to change the law, let's 
take their recommendations. Then, if I could ask you also, 
since the international standards are also imposed for 
Americans outside our borders, but that it is very important 
that you lead an effort. And I think one of those bodies is in 
London?
    Admiral Salerno. Yes, sir. The International Maritime 
Organization is the primary agent.
    Mr. Mica. Right. To take to them our recommendations so 
that we can protect Americans from U.S. ports, but there are so 
many Americans now that travel internationally on these 
international liners, so we will set a date appropriate to the 
majority and the minority for a roundtable followup. And then 
we would like to try to get your recommendations for law 
changes and what you can do by regulation, what these two 
gentleman take to the international organizations to recommend 
an update. Can I yield to Mr.----
    Mr. LoBiondo. Mr. Chairman, you can do whatever you like.
    Mr. Mica. Well, no. I only do what Mr. Young asked for, 
because he is more ranking as far as chairman.
    Mr. Young. Thank you, and thank you, Mr. Chairman. And 
first let me say thank the chairman, Mr. LoBiondo, for this 
hearing. But, you know, I will tell you this. There is nothing 
wrong with the ship. This was a good ship. There are probably 
three errors and they are all human errors.
    One, we had a captain that forgot he was a captain. As a 
captain, I can tell I was very embarrassed. He took it off the 
plot. He was too close to the shore, and there is nothing wrong 
with the ships we have in the industry. One thing also in our 
area we have American pilots that pilot the ships in our 
waters, especially in the Northwest, crucially important. If 
the pilot had been onboard that ship as he should have been, 
this would not have happened.
    Was the crew trained? Maybe, maybe not; I am not sure about 
that. And I want us to be careful about casting aspersions to 
the American cruise lines in American waters, because we are 
doing a very good job. We have had a good safety record. We 
have had one bad fire in Alaska over the last 35 years, and had 
a great rescue by the Coast Guard. And that is something that 
is really important to me to recognize where the problem lies. 
This was a human activity that should never have occurred.
    We go through a very rigorous program in our waters about 
safety for our cruise ships. Are we perfect? No. Huge industry, 
pretty doggone good. I really want you to understand that, 
Admiral, because to me this is important that we don't have a 
black eye all the way around the world about the cruise 
industry. And you say, well, why am I saying this? Because we 
have a very fine industry in Alaska.
    We have over 1 million passengers a year come to the State 
of Alaska. I have never heard them complain about any of the 
activities of the crews or the captain, so that is important. 
And, Mr. Chairman, if I could ask one question, it has really 
nothing to do with this, but I have been requested to do it.
    The Longshoreman have asserted that neither the foreign 
crew nor the American staffs onboard the foreign cruise ships 
have required safety training to load, unload and tie up 
vessels in our Nation's ports. How would you respond to the 
concern that unqualified personnel loading and unloading and 
tying up vessels at our Nation's ports may endanger our 
passenger safety? And, do you believe legislation required to 
further protect passenger safety during the loading and 
unloading and tying up the vessels of our Nation's ports?
    This is a complaint I have had from, of course, an interest 
group, but this also ties into the safety factor, how it is 
loaded. I used to be a loadmaster too. How the ship is loaded, 
where it is loaded; what is the passengers' requirements? What 
is the crew's requirements about handling all types of things? 
And I guess you can comment on it, Admiral, if you can.
    Admiral Salerno. Well, certainly, as far as loading 
equipment, stores, trim and stability are very, very important 
on any ship, particularly important, of course, when you have 
passengers involved, looking after their safety. I have not 
heard the particular concern raised by the Longshoremen's 
Union, but I would be very interested in looking into that.
    Mr. Young. I appreciate it and I notice how quick people 
forget. And, thank you, Mr. Chairman. You were not on the 
timer. The ranking member was not on the timer. The chairman 
was on the timer, but as an ex-chairman I was put on the timer. 
With that, I yield back my time.
    Mr. LoBiondo. I will reserve comment on that, but for those 
of you who may not be aware, Mr. Young, I believe, is the only 
Member of Congress who actually holds a captain's license. So 
he does speak with some personal experience.
    Ms. Brown? Or, excuse me, Mr. Larsen?
    Mr. Larsen. Mr. Chairman, I just noted to Mr. Young that in 
the future when he is ranking member I will be sure he is put 
on the timer.
    Mr. Young. Thank you. That won't happen for a while!
    [Laughter.]
    Mr. LoBiondo. OK. Ms. Brown, you are recognized?
    Ms. Brown. Thank you. Let me take this opportunity to thank 
the U.S. Coast Guard for not just the work that you do in 
Florida, but throughout the country. We have given you a 
tremendous amount of responsibility, and you all have come up 
to the challenge. And every time I get a chance to thank you 
publicly, how you all responded after 9/11, I have to, because 
you all was the first branch that was there and protecting our 
country right after that tragedy. So, thank you.
    There is no doubt that this accident in Italy was tragic. 
My thought and prayers go out to those who was killed and 
injured, and we must take every chance necessary to protect the 
safety of the passengers. But we can't vilify the entire 
industry because of the reckless action of one rogue employee 
who failed to follow the policy and protocol of his own 
company. As a Member from the State of Florida and a 
representative of the Port of Jacksonville, I am particularly 
interested in the cruise industry.
    The cruise industry is a critical, economic engine for the 
State of Florida. Over 8 million passengers embarked from 
Florida in 2010 and the industry contributed more than $6.3 
billion in direct spending. In addition, the cruise industry is 
the second-largest employer in Florida, generating more than 
123,000 jobs paying $5.4 billion. But, I do want to go back to 
the question that I want to ask you about do you think that the 
Italian Coast Guard did everything that they could to assist 
the passengers, and what recommendations would you make that we 
add additional recommendations?
    Admiral Salerno. Thank you, Congresswoman. To the best of 
my awareness the Italian Coast Guard pursued the response in a 
very, very aggressive, very professional manner. I have nothing 
to suggest otherwise. We, of course, at the very beginning of 
the investigation, I think we will learn more about not only 
the actions of the crew but rescue organizations, which will be 
beneficial to us as we refine our search and rescue, and mass 
rescue operational plans.
    Ms. Brown. And I know the investigation is going on, but 
there is a great amount of concern as to how the captain 
handled the situation. And, what procedures could we put in 
place to make sure that, I mean, afterwards it was not from the 
press account. Of course, you can't always believe the press 
account, but, you know, it was an acknowledgment that it was an 
emergency.
    And, in addition, my understanding that it is 24 hours 
before they have to have the muster drill. I understand now 
that the cruise industry have gone back and said that before 
you leave that port that you're going to have that training, 
and I think that is very important, and I am glad that they 
instituted it throughout.
    Admiral Salerno. Yes, I think that is a noteworthy 
improvement and I am very pleased with the industry for taking 
that initiative, even in advance of being required to do so. So 
I think that is a positive development. As far as the actions 
of the master, obviously, the investigation will shed more 
light on it. I don't know of any professional mariner who is 
willing to step up and defend what the apparent lack of 
leadership that clearly took place on that ship.
    Ms. Brown. What about the training of the crew, because it 
seemed like everything was kind of in disarray. And, every time 
I have gone on cruises and I send my mom on cruises and family, 
the first thing they do is they have that training as to how in 
case of an accident, you know, you put on your gear and 
everything.
    Admiral Salerno. That is correct.
    Ms. Brown. That hadn't happened. They got on the cruise. 
Everybody was dressed for dinner, but they had not had that 
initial safety training.
    Admiral Salerno. There are well-defined requirements of 
training for crewmembers. Anybody with a safety position, 
including, you know, hotel staff that may have a safety 
position and crowd management, ushering people to their 
embarkations stations. And so all of that is required, and 
periodically refreshed.
    We enforce those regulations vigorously in our core State-
controlled program. We work very closely with the industry and 
convey our expectations about a safety culture; and I think the 
results are in the numbers. The cruise ship industry in the 
United States has a very good safety record. It is among the 
safest of all maritime activity.
    So, that doesn't happen by accident. It requires commitment 
by regulators and by the industry itself, and the numbers, I 
think, bear that out.
    Ms. Brown. My last question is I understand on the 
equipment, the safety boats were on side, and they had to walk 
all the way to the other side. So was there any discussion as 
to making sure it is at a certain level, because I understand 
if it is at certain feet, then it is underwater or something.
    Admiral Salerno. There are some very precise technological 
requirements for lifeboats. The angle at which they must be 
lowered--20 degrees was mentioned earlier--that's correct. 
There is also trim. You have 10 degrees either fore and aft 
trim. So operating against adverse conditions, yes. Also at 
play here is the stability condition of the ship.
    One of the questions we do not yet have an answer to is how 
much flooding occurred in that ship, and should it have listed 
over as far as it did. We don't know if water tight doors were 
closed internal to the ship, which may have spread the flooding 
beyond the design limits. All questions that we need to know as 
part of the investigation we'll pursue with the Italian 
Government.
    Ms. Brown. Once again, I want to thank the men and women 
for their service.
    Admiral Salerno. Thank you.
    Ms. Brown. And I yield back the balance of my time.
    Mr. LoBiondo. Thank you, Ms. Brown.
    Mr. Coble, Master Chief.
    Mr. Coble. Thank you, Mr. Coble. I appreciate that.
    Mr. Chairman, this has nothing to do with my questioning, 
but are the acoustics flawed? It appears to be muffled.
    Mr. LoBiondo. The acoustics are different today, and I am 
not sure whether that is controlled by the control room or just 
something a little bit different.
    Mr. Coble. I thank you. Admiral, good morning.
    As has been indicated earlier, we are deeply concerned 
about the loss last night, Admiral.
    Admiral Salerno. Thank you, sir.
    Mr. Coble. Admiral, will the Coast Guard conduct an 
independent investigation in the loss of the two American 
citizens aboard the Costa Concordia?
    Admiral Salerno. Well, we are, as mentioned, sir, 
interviewing all the U.S. passengers who were onboard to 
develop as complete a picture as we possibly can as to what 
took place on that vessel. And as mentioned, look to the 
chairman. We will share that information with this committee.
    Mr. Coble. I thank you for that. Admiral, is it possible 
for a cruise vessel to fail an inspection and then not be 
permitted to operate in U.S. waters?
    Admiral Salerno. Yes, sir, that is possible. And there have 
been instances where the Coast Guard inspector has not been 
pleased and is detained to ship. That doesn't happen very 
often, and it quite honestly hasn't happened in a number of 
years now, because I think we have developed a strong enough 
expectation with the industry. And they responded by 
instituting safety cultures within their companies to make sure 
that they meet all of our very strenuous requirements. But, 
yes, it is possible. If we are not satisfied, the ship won't 
sail.
    Mr. Coble. And when the Coast Guard in fact does detect 
deficiencies, how do you follow up to ensure that the 
deficiency had been corrected?
    Admiral Salerno. We do follow up. You know, depending on 
the severity of the deficiency, we may allow a certain amount 
of time for correction. If there is some immediate danger, we 
would require an immediate fix.
    Mr. Coble. Admiral, let me ask you this. Are the hotel and 
entertainment staff aboard U.S.-flagged cruise vessels required 
to be a credentialed merchant mariners?
    Admiral Salerno. Yes, sir, they are. U.S.-flagged cruise 
vessels are required to be licensed by the Coast Guard. The 
crew must hold Merchant Mariner credentials and they must have 
the training associated with the safety positions that they 
hold on those vessels.
    Mr. Coble. And I would assume that that would probably lead 
to a more competent crew. Would it not?
    Admiral Salerno. That's the goal, yes, sir. That training 
is designed to achieve a level of competency that is a 
baseline. Now, when we witness fire drills, boat drills, on 
board not only U.S.-flag ships, but on foreign-flag ships, that 
is one of the ways that we verify that the training has taken 
hold, that people actually know how to use the equipment. They 
know how to communicate, and they can perform their functions 
in an efficient manner. So that is one of the controls we have, 
in verifying that.
    Mr. Coble. Thank you, Admiral. Good to have you with us. I 
yield back, Mr. Chairman.
    Mr. LoBiondo. Thank you, Mr. Coble. Mr. Cummings?
    Mr. Cummings. Thank you very much, Mr. Chairman.
    First of all, let me associate myself with the words of Ms. 
Brown with regard to the tremendous work that the Coast Guard 
does every day. I call them the thin blue line at sea, and also 
I express my concern and prayers and condolences for the losses 
that we have suffered here recently, those families are going 
through some difficult times.
    As the Coast Guard faces continuing budget challenges, 
perhaps the single most important thing we can do to ensure the 
safety of the cruise industry in the United States and indeed 
the safety of our entire maritime transportation system is to 
ensure that the hard one gains and the Coast Guard and Marine 
Safety Program are not lost, and that this critical program 
continues to receive the resources it needs to be able to 
engage fully qualified personnel to carry out thorough 
inspections and investigations.
    And I want to thank Ms. Matsui and certainly the cruise 
industry, and victims for helping us as we address many of 
these issues in the 2010 reauthorization. Everybody should 
know, Title 5 of the Coast Guard Reauthorization Act of 2010 
established certain standards for the prevention and response 
and workforces. Title 5 required that there be in each sector a 
chief of prevention who is at least a lieutenant.
    A lieutenant commander is a GS-13, and who is a marine 
inspector and qualified marine casualty investigator or marine 
safety engineer. Is a qualified chief of prevention in place at 
each sector now?
    Admiral Salerno. Yes, sir. We have qualified members at 
nearly every sector, and as I think we have briefed you in the 
past, sir, we have also included a number of civilian marine 
inspectors in our workforce. Our goal is 30 percent. So every 
sector has civilians who will be our longstanding experts in 
every port. They have the local knowledge. They have the 
awareness of the industry, and they also assist in the training 
of more junior people. So I think we have made considerable 
process under Title 5 of the Coast Guard.
    Mr. Cummings. Very good. The Title 5 required that a 
certificate of inspection must be signed by the senior Coast 
Guard members or be an employee who inspected the vessel, in 
addition to the officer in charge of marine inspection. Is the 
Coast Guard in compliance with this requirement?
    Admiral Salerno. Sir, I will have to confirm that that has 
been put in effect. It is certainly our intention to comply 
with the Title 5 requirement.
    [U.S. Coast Guard insert for the record:]

        The Coast Guard is not currently in compliance with 
        this section of the Coast Guard Authorization Act of 
        2010. However, the Marine Inspector signature block on 
        the Certificate of Inspection will be incorporated as 
        an enhancement in the spring 2013 update of the Coast 
        Guard's Marine Information for Safety and Law 
        Enforcement System database.

    Mr. Cummings. How soon can you get us that information?
    Admiral Salerno. I should be able to get that to you within 
a day or so, sir.
    Mr. Cummings. All right. Thank you. Similarly, Title 5 
required that any individual adjudicating an appeal or waiver 
of a decision regarding marine safety should be qualified. A 
qualified specialist will have a senior staff member who is a 
qualified specialist and who concurs in writing with the 
decision on appeal. Is the Coast Guard in compliance with that?
    Admiral Salerno. Yes, sir. We are making sure that there 
are qualified people throughout the chain of review.
    Mr. Cummings. Very good. What is being done to include 
geographic stability among the marine inspector and 
investigative workforce?
    Admiral Salerno. The primary reason, the primary 
methodology for geographic stability is the civilian workforce. 
That gives us some rootedness in every court so that that's a 
hedge against the military workforce, which by its very nature 
does move around more frequently, but civilians provide that 
stability.
    Mr. Cummings. Very good. Let me ask you. How many 
inspectors do you have who are qualified to examine cruise 
ships, and is the inspector workforce currently adequate to 
meet the current work load?
    Admiral Salerno. Sir, for qualified inspectors for cruise 
ships, there are currently 326. And the current workforce, yes, 
is adequate. We have added a number of new billets over the 
past fiscal years, 400 plus, I think, until 2011. In 2011 there 
are some additional, and we will annualize some that were 
brought onboard in 2012, so over 500 overall new positions.
    And we intend to hold onto that, even though we were in a 
very tight budget environment. So it has been growth and a no-
growth environment, so I think that speaks to the level of 
commitment the Coast Guard has to this mission.
    Mr. Cummings. How many of the captains of the cruise 
vessels that call on the United States are Americans operating 
on the U.S. Coast Guard issued licenses?
    Admiral Salerno. The foreign-flag cruise ships are, I 
think, almost exclusively captained by foreign masters, but 
they do meet international standards that we have helped 
develop through the IMO.
    Mr. Cummings. So I guess that sort of leads to my next 
question, and my last question. Captains who are not licensed 
by the U.S. Coast Guard, what review do you conduct of their 
licensing or fitness for duty?
    Admiral Salerno. Well, we certainly checked their 
credentials issued by their home governments; and, then, as we 
go through our inspections, and particularly with fire and 
lifeboat drills, that is our ability to assess their 
competence. In every inspection we question the crew as to 
their knowledge as to safety requirements, security 
requirements, and environmental, and we make some judgments 
based on that. We have held and detained ships in the U.S. when 
we have come to the conclusion in sensitive safety positions 
onboard did not know their duties.
    Mr. Cummings. Very well, and thank you, Mr. Chairman.
    Mr. LoBiondo. Thank you, Mr. Cummings.
    Ms. Matsui.
    Ms. Matsui. Thank you, Mr. Chairman, and thank you for 
allowing me to be a part of this important hearing.
    I would like to thank the witnesses for being here today 
and particularly the survivors from the Costa Concordia. And I 
would like to ask unanimous consent that a letter from the 
International Cruise Victims Association be submitted for the 
record.
    Mr. LoBiondo. No objection.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Matsui. The Costa Concordia accident is an unfortunate 
tragedy that once again highlights the need to constantly 
evaluate cruise ship safety, as does the current situation with 
the Costa Allegra. We must not only examine the physical safety 
of the ship and the safety procedures in place to respond to an 
emergency, but also to the security of the passengers while 
onboard.
    In July of 2010, President Obama signed into law the Cruise 
Vessel Security and Safety Act. Legislation I sponsored after 
learning that one of my constituents suffered a rape while on a 
cruise vacation, and that there was no process onboard to 
properly handle the crime. This law is a first step towards 
providing greater security for passengers, from requiring cabin 
door peepholes and security latches, to improving medical care 
and support to victims of sexual assault.
    This law also gives the public access to information about 
the number of crimes committed on cruise ships, and puts much 
needed procedures in place to ensure the proper preservation of 
evidence necessary to prosecute the criminal. All provisions of 
this law went into effect by or on January 27th, 2012. I have 
raised concerns about whether the law is being properly or 
timely implemented and look forward to getting answers to these 
questions today.
    As you know, Admiral Salerno, the Cruise Vessel Security 
and Safety Act required that each cruise ship integrate video 
surveillance and man overboard technology to the extent that 
such technology is available. It is my understanding that the 
Coast Guard has received several proposals from different 
companies that manufacture man overboard detection devices. 
Have the cruise lines integrated man overboard technology 
aboard their vessels as required by law?
    Admiral Salerno. Ma'am, that aspect of the law was 
determined not to be self-executing, so we have embarked on a 
regulatory process. The first step in that process was to seek 
information from the industry to determine the availability of 
technology that can be used for man overboard detection, so we 
are engaged in that process right now.
    Our intention is to take that information and convert that 
into a notice of proposed rulemaking to fully implement that 
provision of the law. Other aspects of the law that are self-
executing, we have through policy--I've already implemented 
procedures.
    Ms. Matsui. Where are you in the rulemaking process now?
    Admiral Salerno. In the process we are gathering 
information, quite honestly, from the affected public.
    Ms. Matsui. OK. We would like to do that as quickly as 
possible.
    Admiral Salerno. Absolutely.
    Ms. Matsui. Admiral, the law also requires at least one 
crewmember be adequately trained in proper crime scene 
preservation techniques. I understand that the Coast Guard 
worked with the FBI and the Maritime Administration to come up 
with a model 8-hour training course. How do you know if a 
crewmember has satisfactorily completed this training?
    Admiral Salerno. The training would be certified by the 
company, and it would be examined during the course of our 
normal inspections of the vessel.
    Ms. Matsui. So, do the cruise ships have to provide actual 
documentation that this training has been completed?
    Admiral Salerno. They have to have that documentation 
onboard, and I will confirm for you whether they have to 
affirmatively send it in. I don't have that detail, but I'll 
confirm that for you.
    [U.S. Coast Guard insert for the record:]

        The cruise ship companies are not required to send 
        documentation directly to the Coast Guard or the FBI. 
        However, cruise ships must inform the Coast Guard in 
        their Advanced Notice of Arrival that one or more 
        properly trained crewmembers are onboard the vessel. In 
        addition, the Coast Guard will confirm the cruise 
        ship's compliance during annual and periodic 
        examinations through a review of the crewmember's 
        training certificate.

    Ms. Matsui. And who is conducting the training of the 
crewmembers?
    Admiral Salerno. The training is conducted by the cruise 
lines themselves based on a model course that was developed in 
conjunction with the FBI and the Maritime Administration.
    Ms. Matsui. OK. And how do you know that the training 
actually follows the recommendations of the model course?
    Admiral Salerno. That would be verified through our routine 
inspections at the vessels. We would do that as part of the----
    Ms. Matsui. OK. That's part of the course. OK.
    Admiral Salerno [continuing]. Part of the inspection 
program.
    Ms. Matsui. OK. Well, I still have concerns that the 8 
hours might not be adequate time to properly train a crewmember 
in crime preservation techniques, and I do hope we can work 
together to ensure the cruise ships have the expertise 
necessary.
    Admiral Salerno. Yes, ma'am. The program in place now is an 
interim one, and we are absolutely open to suggestions to 
improve that program.
    Ms. Matsui. I think you understand how important it is to 
the cruise victims that all of this be done in as expeditious 
manner as possible.
    Admiral Salerno. Yes, Congresswoman.
    Ms. Matsui. And I truly appreciate what the Coast Guard is 
doing. I along with the others do appreciate your service. And 
I know that my time is moving now, and I do have a few more 
questions, but I am hoping that I can have written--OK. Thank 
you very much. Thank you very much for that. I appreciate that. 
Have the cruise lines integrated video surveillance aboard 
their vessels as required by law?
    Admiral Salerno. Ma'am, I will have to confirm that with 
you. I don't have the details on that, but I can get back to 
you on that.
    Ms. Matsui. So, OK. So you have no idea of the reasons 
behind that at all?
    Admiral Salerno. I don't have the information on that, 
ma'am. I will get back to you.
    [U.S. Coast Guard insert for the record:]

        All cruise ships have video surveillance systems of 
        various types. The Coast Guard is developing 
        regulations to implement the requirements for video 
        recording and surveillance systems as required by the 
        Cruise Vessel Security and Safety Act of 2010. 
        Furthermore, Coast Guard policy requires that a copy of 
        video recordings using currently installed video-
        recording equipment, which pertain to an alleged crime 
        under investigation, shall be provided to law 
        enforcement officials upon request.

    Ms. Matsui. OK. Will there be a rulemaking process for that 
also?
    Admiral Salerno. That is part of the rulemaking process.
    Ms. Matsui. Admiral Salerno, as you know, the law also 
requires cruise ships to report crimes committed upon their 
ships, and the Coast Guard is to provide the information to the 
public through an Internet portal. I have raised some concerns 
about the low number of crimes actually being reported.
    There were 16 reported for the entire year of 2011. Can you 
walk me through how the following crime would be reported/
investigated? Let's say a sexual assault occurs on the high 
seas involving a U.S. citizen on a Jamaican-flagged ship, 
leaving an American port headed for Cancun. I would like to 
know who would have jurisdiction over this crime, how would 
jurisdiction be determined, and who would be able to make an 
arrest?
    Admiral Salerno. For a crime of that nature the process 
would be the cruise lines would report that. It would go to the 
FBI. There would be investigation by the FBI, typically in 
conjunction with Coast Guard investigators. The FBI would post 
the results once the case is final. We would put that on our 
portal, but we are posting closed cases. So what you see as low 
numbers are closed cases. There are more cases that are still 
open, still under investigation, not closed out. So that's not 
representative of the total.
    Ms. Matsui. So that's not represented on the portal at all?
    Admiral Salerno. Correct.
    Ms. Matsui. OK. So, you know, a key element of this law was 
to provide the public with correct information regarding crime 
on cruise ships, and I do hope that the Coast Guard and the FBI 
are doing everything in their power to have complete 
information. And I will be following up with you and the FBI.
    Admiral Salerno. Yes, ma'am.
    Ms. Matsui. Thank you very much, Mr. Chairman.
    Mr. LoBiondo. Thank you, Ms. Matsui.
    Mr. Farenthold?
    Mr. Farenthold. Thank you. I apologize for arriving late. I 
was in a FEMA hearing in another building. But I am sure you 
have probably covered this, but reassurances for American 
citizens on cruise ships coming out of American ports, I 
realize that under foreign-flag vessels we don't have nearly as 
much jurisdiction as we do under U.S.-flagged vessels. But the 
economies of the cruise industry typically result in foreign-
flagged vessels. Would you feel comfortable taking your family 
on a cruise out of a U.S. port?
    Admiral Salerno. I would, and I say that because we do have 
the most rigorous examination program in the world. And we have 
received cooperation from the industry in adopting a safety 
culture, so that even when we are not watching, I have 
confidence that they are doing the right thing.
    Mr. Farenthold. And do you feel like there is anything else 
that we need to be doing to ensure cruise ship safety? Again, 
obviously we have no jurisdiction outside of ships that call on 
our ports. Where are we short?
    Admiral Salerno. Well, I think our interest in the Costa 
Concordia investigation is to explore that very question. We 
need to be open to the fact that some of our regulations may 
need to be strengthened. The international regime may need to 
be strengthened. Maybe training needs to be strengthened. Those 
are questions without answers at this point, but I think we 
need to be open to the fact that we will have something to 
learn from this, and then we would like to stay connected with 
this committee as to what those things may be.
    Mr. Farenthold. I will look forward to working with you and 
I will yield back the remainder of my time.
    Mr. LoBiondo. Thank you. Ms. Brown?
    Ms. Brown. Thank you, Mr. Chairman. I want to thank you all 
for calling this meeting. And the purpose of this meeting is to 
see what we need to do to strengthen the industry at the 
hundred years since the Titanic sank and what policies that we 
need to implement to make sure that we can protect all of the 
passengers.
    We often say U.S. passengers, but people come from all over 
the world to sail on our ships. And, in fact, I went to 
Barcelona, and there is a cruise ship that leaves Orlando, 
Florida, that goes to Barcelona. So it is an international 
business. And I want to commend Ms. Matsui for pursuing making 
sure that people are safe on the ships when they travel. But my 
understanding, the cruise industry is one of the safest in the 
world as far as being attacked. You can be attacked in my 
neighborhood, as far as that goes. Can you tell us a little 
about that? Because I would not want to leave here with the 
image that traveling on a cruise ship is not safe. I send my 
mother on a cruise ship, so I know it is safe.
    Admiral Salerno. Our numbers, I think, speak for 
themselves. Cruise ships consistently rank among the lowest of 
the category of ships that have marine casualties. So all the 
major types of casualties that we measure, collisions, 
groundings, fires, floodings, those types of things. They are 
single digit numbers in all these different categories, so, 
yes, comparatively safe. And I think, overall, objectively 
speaking, it is a safe industry.
    But, as mentioned, that doesn't happen by accident. That 
takes a lot of effort; and, we from a Coast Guard perspective, 
are relentless in applying that effort, working with the lines 
to keep them safe.
    Ms. Brown. Well, thank you very much. And I also would like 
to have an opportunity to respond to the Rep, that we are going 
to have adequate time to respond to or make additional comments 
in the record. Is that correct?
    Mr. LoBiondo. Absolutely.
    Ms. Brown. All right. Thank you. Mr. Cummings.
    Mr. Cummings. Mr. Chairman, I just have a question or two 
and just followup on what Ms. Brown just said. Mr. Chairman, 
last week in Oversight and Government Reform we had a hearing 
on the Chevy Volt. And one of the things that came out of that 
hearing was we wanted to make it clear that the Volt was a safe 
car. And one of the things that the head of GM said to us was 
that, you know, it's nice for you to have this hearing. The car 
is safe, but there is going to be some collateral damage.
    And just following up on what Ms. Brown just asked, I want 
to make sure that we are being fair to our cruise industry. I 
worked very closely with the cruise industry when we were 
trying to pull all of this together, the reauthorization, and I 
found them to be very fair, very reasonable. And as they would 
say to me over and over again, ``Cummings, this is just as 
important to us that we have safety on our ships as it is to 
you.'' And I thought that they were very fair and very 
balanced, very reasonable. And so I don't want the word to go 
out that because of these incidents that really is not us.
    See. I want that clear, but I know what happens, just like 
with the Chevy Volt. And when the president of GM said that he 
was concerned that there would be collateral damage, and when 
we talk about the collateral damage here, we are talking about 
an industry that hires a lot of people, an industry that 
provides families in these difficult economic times with one of 
the cheapest and most inclusive vacations that they can get. I 
don't want there to be collateral damage to that industry.
    So I wanted to make it very clear. I want you to reiterate 
what you just said, that it is a safe industry, and that leads 
me to my question. Are there things that you would like to see 
us do, more than what we are doing, to make it even safer? I 
mean nothing is perfect. It's not a product. It is a project, 
ever evolving.
    We have learned every day from our mistakes. So the 
question is is there anything that we should be doing that we 
are not doing. And I am just curious, because I don't want the 
word to go out that we haven't fulfilled our responsibility. I 
believe that the industry is doing the best they can, but I 
don't want them to be blindsided by a hearing that paints them 
in a light that is just not accurate. That's all.
    Admiral Salerno. And thank you, Congressman Cummings. It is 
not my intention to paint the industry as a----
    Mr. Cummings. No, I think you have done a pretty good job. 
I just want to make sure we are real clear, because you know 
how people are.
    Admiral Salerno. Right.
    Mr. Cummings. They get a little tidbit of information, and 
particularly with these incidents that had nothing to do with 
us.
    Admiral Salerno. Correct.
    Mr. Cummings. Next thing you know, that industry then 
suffers when it shouldn't suffer.
    Admiral Salerno. Yeah. I think we look at our casualty 
statistics very closely, and we do bear out the fact that this 
is a safe industry. So they have a good record. We obviously 
want to work with the industry to maintain that record, but it 
is objectively speaking, a safe industry.
    Mr. Cummings. And how do we protect our progress?
    Admiral Salerno. We continue from a Federal perspective, 
continue to stay engaged with the industry. We will watch this 
casualty, see what unfolds from it, and we would certainly like 
to stay connected with the committee as to the results of what 
we find on that investigation to see if there may be other 
things that we need to do. We don't have the answers to that 
yet, but again we need to be open to what we learned from this 
investigation.
    Mr. Cummings. Thank you very much. Thank you, Mr. Chairman.
    Ms. Brown. Mr. Chairman?
    Mr. Cummings. I yield to the lady.
    Ms. Brown. Yes. Mr. Chairman--former Mr. Chairman, but you 
said, ``cheap,'' and I just want you to know that cruise is 
comprehensive, affordable travel, having been a travel agent 
prior to coming to Congress.
    Mr. Cummings. So, reclaiming my time, I take back the word 
``cheap,'' and I would substitute it, Mr. Chairman, with 
``affordable.'' And I yield back. Thank you for correcting me, 
Ms. Brown. I yield back.
    Mr. LoBiondo. Mr. Larsen.
    Mr. Larsen. Mr. Chairman, I ask unanimous consent to enter 
into the record the statement from Geoffrey Scimone.
    Mr. LoBiondo. Without objection, so ordered.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. LoBiondo. Ms. Brown, Mr. Cummings, anything else?
    [No response.]
    Mr. LoBiondo. Mr. Farenthold? Nothing else.
    Well, Admiral, thank you very much. This was, I think, 
extremely helpful, and as we proceed, I would just like to 
reemphasize a couple of things as we close off this first 
panel.
    Mr. Mica had made the request that we have this hearing 
over the tragedy with the Costa Concordia, that we also use 
this opportunity as the admiral has pointed out. And I think we 
will hear, additionally, that the U.S. cruise industry has been 
very proactive with the Coast Guard, which we are going to look 
forward to following up on and highlight the realities Mr. 
Cummings and Mr. Brown, I think, amply did.
    But to make sure that we don't have collateral damage with 
U.S. citizens with the cruise industry because of our safety 
record being so incredible, and that is due to the proactive 
nature of the Coast Guard and working with the industry, we 
will look forward to the results of the investigation, which as 
you said, Admiral, will I think give us more. But at this point 
I feel comfortable in saying, not being a lawyer and all the 
qualifications or qualifiers that need to go with this, every 
indication is that this was incredibly poor judgment on behalf 
of one individual mariner, at best.
    At worst it is much more damning, and when you have 
somebody that exercised extremely poor judgment and lack of 
judgment, it is a very difficult problem to deal with. So, 
Admiral, we thank you for being here.
    We will have a very brief adjournment as we can set up for 
the next panel.
    Admiral Salerno. Thank you, Mr. Chairman.
    [Recess.]
    Mr. LoBiondo. The committee will return to order.
    For a second panel we have Mr. Sameer and Mrs. Divya Sharma 
of Medford, Massachusetts. The Sharmas are survivors of the 
Costa Concordia and are here today to give us their firsthand 
account of what happened.
    We welcome you both. We thank you for taking the time to 
share with us, and you are now recognized for whatever 
statements you would like to make.

TESTIMONY OF SAMEER AND DIVYA SHARMA, COSTA CONCORDIA SURVIVORS

    Mr. Sharma. Thank you, Mr. Chairman.
    Mrs. Sharma. Thank you, Mr. Chairman.
    First of all, thank you for giving us the opportunity to 
come in here and present what we have to say. I would just 
start off saying that this was our fifth-year wedding 
anniversary trip, our first trip to Europe. We were very 
excited, and as Ms. Brown had said earlier, it is a very 
affordable way to travel. We had cruised before. So that kind 
of like helped us to make up our mind to take another cruise.
    We boarded the Costa Concordia on Friday, January 13, 2012, 
from Civitavecchia, Italy, between 5:00 p.m. and 6:00 p.m. The 
first impression was the ship was huge and very beautiful. The 
boarding process was fairly easy. Since we had one of the non-
European passports we had to surrender our passports to the 
crewmembers.
    After that we went to our room that was on the ninth deck. 
At this point we had had no communication regarding the 
emergency safety drill or any instructions from anyone from the 
crew telling us where to go in case of emergency. We were in 
full spirit of our vacation and were very happy to be on board.
    Soon after getting situated, we started to unpack our 
luggage and started to get ready for our dinner reservation at 
9:00 p.m. on the third deck. At about 9:15, we were at our 
dinner table on deck three and were in the process of ordering 
our food, and we had just ordered our appetizers. At that 
moment there was a violent shaking of the ship followed by loud 
crash noises as the plates and the glasses broke due to the 
listing of the ship towards the starboard side. Lights went out 
immediately, but there was no announcement as to what had 
happened. It was pitch dark with no visibility.
    Everyone nearby started to scream, and a few minutes into 
the ordeal the emergency lights came on, and we observed that 
the ship is now listing on the port side. This is when the 
first announcement came on telling us that it was nothing but 
an electrical failure and that everything is under control. 
Crewmembers urged the passengers to remain calm and seated.
    The staff started to bring out people's food as if nothing 
bad had happened. While the ship is still tilted, we saw a few 
crewmembers in our dining room break down crying and extremely 
panicked. When we glanced outside, we saw around five to seven 
crewmembers wearing life jackets, but still the announcements 
continued telling us to remain calm and seated, and the 
electric issue is being worked on and everything is under 
control.
    Around 10:00 p.m., about 30 minutes into the situation, we 
are still in our dining room when my husband decided it is time 
for us to go and to at least get our life jackets from the room 
because at this point we have no idea if we do not have to go 
back to our room where else can we get our life jackets from. 
We had no knowledge from where we can get the life jackets 
otherwise. I had spotted the life jackets in the closets of the 
room since I was unpacking and putting our luggage away.
    As we went out of the dining room, we were highly 
unbalanced due to the tilt, and there were water and wine and 
broken glass on the dining room floor. It was extremely hard 
for us to walk and maintain our balance.
    Once outside, we were immediately unable to locate the 
stairs as we had taken the elevators to get on deck three. 
There were dim emergency lights indicating the stairs, and we 
climbed six floors to our room on deck nine to get to our room 
without guiding us in the dark. Somehow we did manage to get to 
our room holding the guard rails, very much exhausted and now 
panicked.
    As we were getting to our room, there were constant 
announcements of the same message: ladies and gentlemen, 
everything is under control at this point, and it seems to be a 
generator failure. Please stay calm and wait for further 
instructions and be cooperative.
    What caught our attention was that all the announcements 
were made on behalf of the captain, and never once did we hear 
the captain speak. However, there was a sense of panic in the 
announcer's voice that kept making the announcement. Finally we 
did manage to get our door unlocked using our card key after 
several failed attempts. The room had no light, and it was 
extremely dark. I stumbled upon a few things that had fallen on 
the floor. At that time my husband decided to stay in the 
middle of the door to keep it open and pushing the furniture 
back to make some room to get our life jackets.
    The ship felt a little more tilted, and the room's 
furniture had shifted significantly. I knew where the life 
jackets were because I had just unpacked the luggage to arrange 
in the closets. Once we got the life jackets, we immediately 
got out of the room and spotted our stateroom attendant nearby. 
I at that moment asked the room attendant where are we supposed 
to go, and she replied in a very irritated tone, saying, 
``Madam, at this point there is no emergency. You do not need 
to go anywhere. Please stay here and wait for further 
instructions and for the emergency alarm to sound,'' which we 
had no idea how it would sound like.
    As she started walking away and we asked her again in an 
emergency where are we supposed to meet, she replied at that 
point, ``The muster stations are on deck four.''
    At this point we were still unaware what was the root cause 
of this ordeal. There were no emergency alarms going on, and 
the same announcement kept on repeating telling the passengers 
to remain calm and the electrical issue is under control.
    While we are going to the deck four, we saw the crewmembers 
amongst us running around panicked, frustrated, and clueless. 
No one seemed to have any clear idea as to what they had to do 
in this situation or where they were supposed to send us. 
People seemed to direct themselves onto deck four and stood 
near any available lifeboat. As we were making our way to the 
deck four where the muster stations were, we located and saw a 
lot of people just sitting outside of their rooms waiting. 
People were also sitting on the stairs closer to deck four, but 
we went ahead and stood closer to a lifeboat.
    At this point there were three or four crewmembers per 
lifeboat, and they were trying to keep the crowd away from the 
boats. Still there was no communication from their side as to 
when they would allow us to get on the lifeboat or what we are 
supposed to do.
    The time by now is around 10:30 p.m., and one of the 
crewmembers came and practically gave us the same instructions 
this time, urging all of us to go back to our rooms and wait 
for further instructions and everything is under control. A few 
people did what was being asked for, but we decided to stand 
near the exit door near the lifeboat. By now it was really 
difficult to stand straight as the ship was listing towards the 
port violently.
    At this point we decided amongst ourselves and located a 
rock where we could swim to in case they kept us waiting for 
any longer to get into the lifeboats. We tried asking a couple 
of crewmembers to tell us what had happened, and they simply 
shrugged their shoulders and went on. The lifeboat crew was 
equally clueless and kept waiting for further instructions from 
the captain that never came.
    People started to panic and getting frustrated as the ship 
is tilting more by the minute. We were getting frustrated, 
aggravated, and the crowd was pushing and shoving against each 
other, still no sign of any emergency alarms or any evacuation 
instructions from the captain. Finally the lifeboat crew let us 
on as they saw the crowd getting enraged and out of control. 
There was no order of boarding the lifeboat, and everyone was 
shoving, pushing, and kicking to get onto the lifeboat.
    At this point I would like to close it and pass the 
microphone off to my husband, Mr. Chairman.
    Mr. Sharma. So once on the lifeboat, people stand, stood, 
whatever they could do. Within 1 minute the boat was full with 
all the people, and now the lifeboat was overcrowded, and while 
the crewmembers were trying to disengage the boat from the 
ship, it would not happen, and at this point the crewmembers 
were asking people to get off the lifeboat because it is 
overcrowded. However, we did not see anybody at this point go 
to another lifeboat and risk it once finally when they got onto 
the lifeboat.
    Once we are in there, in the lifeboat, that was the most 
scary part of all the tragedy for us. When the lifeboat was 
still stuck and followed by the banging noise of the hammers or 
hammer-like equipment they were trying to use to break off the 
ropes, and once the ropes broke off, a ripping noise came like 
something had ripped from the boat, and now we landed right 
into the water from the fourth floor.
    We thought that now that we are onto the water at this 
point we will be able to at least get out if we have to because 
now we can see a rock nearby.
    Once we were on the water, it was not immediately that the 
boat started to move because of the overweight of the boat. We 
started seeing the blue smoke coming out of the boat, and it 
was not moving at all. It was making almost like a circle as 
there was a current nearby that was caused by the ship. The 
boat is not moving at all, and now we are seeing a tall, 
gigantic building of this ship leaning on top of our boat.
    At this point I asked my wife--who does not know how to 
swim--I said we have a life jacket. I am going to try to take 
this tarp off, and we are going to jump now because we are 
about 10 minutes into the boat that has not moved an inch and 
the ship is moving on top of us every single second.
    So from this point as I am trying to lift the tarp in order 
to jump out of the lifeboat, I am unable to do that as 
instruction by the crewmember was to keep the tarp on while we 
were on the water, and a lot of people were working against or 
with me to pick up the tarp, but I was unable to do.
    And soon after, inch by inch the boat started to move and 
finally we were able to get away from the cruise ship, and that 
is when we spotted nearby there was a lighthouse, and we were 
able to get out. One of the things I noticed while we were on 
the boat, the Coast Guard from Italy were also nearby, and that 
is what was giving us assurance in case we had to jump out and 
stay onto that rock nearby. Somebody would come and get us.
    So we do thank the Coast Guard who were there, which we now 
learn that it was by the passengers who had called the Coast 
Guard and not any member from the crew who had gone to the 
police or to the Coast Guard for help.
    Once on the shore, confusion and chaos continued. It was 
not an end, and how we would keep while we were on the ground, 
we were thinking that we were being assured by the crewmember 
all the time how and under control electrical issue can cause 
this ship to sink. While on the ship there was not one instance 
where crewmember or anybody had mentioned that there was 
anything wrong other than the electrical issue. So we felt very 
betrayed, very much lied to at that point, which I and my wife 
who were celebrating our fifth-year wedding anniversary trusted 
these people with our lives, and they took that for granted and 
were not honest with us at any given point.
    Thank you.
    Mr. LoBiondo. Well, that is a pretty compelling account of 
your experience. I had a number of questions, but your 
thoroughness of your statement, you have covered the questions 
that I had.
    Mr. Larsen.
    Mr. Larsen. Thank you for your statement and your 
testimony. I am sorry about your experience.
    Having nothing to do with it, I am embarrassed by what 
happened. It is shocking what happened.
    Were you at any time informed by anyone that the vessel had 
struck a rock and was severely damaged, at any time?
    Mrs. Sharma. No, never.
    Mr. Larsen. Not at any time.
    Mrs. Sharma. Never. Actually the first time we got to know 
that a rock has struck was when we were in the U.S. Embassy the 
next day. That is when we saw the picture of the ship 
completely submerged in water with the rock sticking out.
    Mr. Larsen. A full 24 hours later about. At any time were 
you give any concise guidance about how to evacuate the ship, 
any time?
    Mr. Sharma. No, there was no time at all as long as we were 
on the ship or onto the lifeboat that what to do, whatever. It 
was always the time, the crucial time that they had on their 
hand, not one person from the crew or anybody had mentioned 
that, what had happened and what to do in an emergency.
    Mr. Larsen. Not even in embarkation, not even when things 
were calm and you were about to sit down to dinner or even 
before then?
    Mrs. Sharma. No.
    Mr. Sharma. No, nothing at all.
    Mr. Larsen. Mrs. Sharma, you noted in your testimony that 
you spotted life jackets, and you leave me with the impression 
that you were not actually told where the life jackets were, 
but you happened to see them in your closet.
    Mrs. Sharma. No. It was only because I was hanging one of 
his suits, and that was the only closet that did not have any 
shelves. It was easy for me to hang it in. That is when I ended 
up spotting the life jackets. They did not tell us where they 
were, but that is where, when I opened the closet and I saw the 
orange jackets there.
    Mr. Sharma. And I had no idea where the life jackets were. 
Only she knew where the life jackets were.
    Mr. Larsen. On the outside, the Italian coast guard, it 
sounds like from your perspective, a good response from the 
Italian coast guard once they knew about it?
    Mr. Sharma. Yes.
    Mr. Larsen. Yes, yes. Well, again, I am glad you are here 
to give us your first-hand experience. I am sorry for your 
experience, but thank you very much for coming.
    Thank you, Mr. Chairman.
    Mr. Sharma. Thank you.
    Mr. LoBiondo. Mr. Guinta.
    Mr. Guinta. Thank you very much, Mr. Chairman.
    And thank you for being here to account to what occurred, 
and again, I am sorry that both of you had to go through this 
as well as every member on that ship.
    A couple of quick questions that I have. Was this your 
first cruise ship or did you have experiences in other cruises?
    Mrs. Sharma. This was our second cruise, but this was our 
first transatlantic cruise.
    Mr. Guinta. So were there any differences between the one 
you took before and this one in terms of safety procedures?
    Mrs. Sharma. Absolutely. The one that we took before we 
were explained. We went through the security drill. They told 
us that in case of emergency do not go back to your room. They 
showed us where the life jackets were on the muster station. 
They also made us go through the entire drill how we are 
supposed to get onto the lifeboat, what is the protocol. So we 
felt very safe in our first cruise.
    Mr. Guinta. An did that happen for this cruise?
    Mrs. Sharma. No. At no given point were we told where the 
muster stations were, what we are supposed to do, who we are 
supposed to contact. I mean, luckily we do not have any kids. I 
am grateful we do not because a lot of times the kids are 
separate from the parents. So, I mean, we had no information 
what to do.
    Mr. Guinta. Is it fair to say that you feel you were not 
properly communicated to regarding safety requirements and 
standards on the ship while you were on the ship?
    Mrs. Sharma. Correct.
    Mr. Guinta. And then can you just talk a little bit about--
I am trying to understand what was communicated to you while 
you were on the ship versus what was communicated to you after 
you vacated and once you were in safe ground. Were the two 
different in terms of what was occurring?
    Mr. Sharma. So at any point while we were on the ship the 
crewmembers kept waiting for some announcement nearby the 
speaker, which never came from the captain, and only time they 
let us onto the boat because now people were very enraged and 
very angry as the ship had tilted enough, and at every point we 
were told that it is an electric issue and everything is under 
control, and we do not have to get off the boat at this point.
    Mr. Guinta. So this is coming from either the crew or the 
staff on the ship?
    Mrs. Sharma. Yes, it was somebody on behalf of the captain.
    Mr. Guinta. On behalf of the captain.
    Mrs. Sharma. On behalf of the captain.
    Mr. Guinta. And how long was that type of message 
communicated to you and other customers on the ship? For what 
length of time?
    Mr. Sharma. So from 9:30 to 10:54. While we were on that 
lifeboat, the same message was being presented to us. The only 
reason I know the specific times is because I had taken a few 
photos, and I go back. They had recorded the timing on those 
pictures.
    Mr. Guinta. And the final question I have is can you convey 
to this panel when you were first notified or aware of actual 
damage that occurred. Were you on the ship or was it when you 
were off the ship?
    Mrs. Sharma. When we were off the ship.
    Mr. Guinta. You were off.
    Mrs. Sharma. And as I said before, the first time, I guess, 
we got to see the length of damage and what actually had 
happened or even that the captain was not on the ship was when 
we were in the U.S. embassy getting our emergency passports. 
That is when we came to know that the reason why the 
announcements were made on behalf of the captain was because 
the captain was not there.
    Mr. Guinta. And then one final question. Since the 
completion of this tragedy, how has the company handled 
communicating with you? What have they offered you? Have they 
compensated you? Have they refunded your trip? What kind of 
experience have you had since?
    Mr. Sharma. So we had made a lot of independent plan beyond 
this cruise ship for our vacation. So immediately the cruise 
line has refunded us for what was charged by them, and they had 
requested us to send other charges that had occurred and they 
will be refunding that as well. So the communication, all the 
communication happened via mail.
    Mr. Guinta. OK. Well, thank you again for coming and 
testifying and sharing with us your experience, and again, my 
apologies to you.
    Mrs. Sharma. Thank you.
    Mr. LoBiondo. Ms. Brown.
    Ms. Brown. First of all, thank you so very much for coming.
    This is truly a teachable moment because everything you are 
saying is what it is that went wrong and how we can improve 
because from step one throughout the entire process everything 
absolutely was not handled properly.
    Did you all embark there or some other place? Because I 
understand this was not the first sailing. So had you just 
entered the ship?
    Mrs. Sharma. Yes. This was our first day. That was another 
thing that we noticed when we were onboard. We got outside our 
room and like all the other people, they had some paperwork in 
their mailbox, and my husband happened to ask our stateroom 
attendant what is going on. Why do they have the paper and why 
we do not?
    And she said that it is because it is a nonstop cruise. So 
for the people who are in the other room, it is their last day 
and they are disembarking in Savona, but since you embarked at 
Civitavecchia, this is your first day.
    Mr. Sharma. And we were in 4 hours of our cruise. So we had 
just gotten onto the cruise that day.
    Ms. Brown. Yes. You got on around dinnertime.
    Mr. Sharma. Yes.
    Ms. Brown. But I understand the new procedure is that 
regardless, before they sail, they will give you the safety 
information.
    You know, this is really like I said, step one, two and 
three. We need to record everything that happened to make sure 
that it never absolutely happens again. I am so happy for your 
safety and coming here to enlighten us as to what happened step 
by step.
    You know, I have heard so many different stories, but there 
is no excuse that the captain was not there, that he did not up 
his responsibility. I understand he was dining, but obviously 
you did not see him at dinner.
    Mrs. Sharma. No, we did not.
    Ms. Brown. He was not at the captain's table.
    Mrs. Sharma. No.
    Ms. Brown. I am trying to make a little joke of it, but it 
is no joke.
    Mrs. Sharma. Yes.
    Ms. Brown. I mean, clearly, if you are the captain of a 
ship, you have a responsibility to make sure your passengers 
are safe. But you know, it goes back to this is one person. I 
cannot imagine anyone responding in that mannerism.
    And so I am happy that you all are safe, and thank you so 
much for coming.
    And I yield back the balance of my time.
    Mr. LoBiondo. Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I agree with Ms. Brown that this is, indeed, a teachable 
moment, and I, too, am sorry that this happened to you. This 
fifth anniversary, was it fifth?
    Mrs. Sharma. It was the fifth.
    Mr. Cummings. Wedding anniversary?
    Mrs. Sharma. Yes.
    Mr. Cummings. I hope you do not mind me saying 
congratulations.
    Mrs. Sharma. Thank you.
    Mr. Cummings. I am sorry you had to go through this hell, 
and hopefully nothing like this will ever happen again.
    But going back to the teachable moment, I know you have 
thought about this, and I want to thank you for your testimony. 
It was very, very clear. But when you look back, are there 
things? You said that you have been on cruises before, I think 
you said, and you got some kind of information about safety. 
There is going to be some testimony later on, and you may be 
already aware of this, that on February 9th, 2012, CLIA members 
instituted a new passenger muster policy requiring mandatory 
muster drills for embarking passengers prior to the departure 
from port, and this is a new policy which exceeds existing 
legal requirements.
    But to those people from the cruise industry that might be 
in the room, what would you like to make sure is in that drill? 
In other words, just like when you get on the airplane and they 
tell you how to fasten your seatbelt and all that kind of 
thing, but what would you want? I mean, having had this 
experience, and none of us probably except some of the people 
that may have been on the ship with you all have gone through 
this type of experience.
    Looking back on it, what kind of information would you have 
loved to have seen or have heard when you got on the ship?
    Mrs. Sharma. So the first thing that we would have liked to 
have seen is getting some kind of information, just even if it 
is the basic information, because in our previous cruise while 
we were signing in, they we telling us please proceed to this 
deck. This is where the security drill is going to be. And as 
soon as you hear ``security'' because personally, when we went 
onto this cruise we trusted the crewmembers and the captain 
that they know what they are doing. Nobody deserves to die on 
their vacation, let alone go through all of this trouble But we 
would have really loved to see some kind of assurance or some 
kind of direction saying, you know, where the life jackets are, 
where the lifeboats are, who is supposed to do who.
    Like you know, in our previous experience they had somebody 
responsible for Group A, somebody responsible for Group B. So 
we knew who to contact in terms of emergency, and they were 
supposed to stand there. So something like that would have been 
really nice to see.
    Language was another barrier that we felt there. The 
majority of the crewmembers, they did not speak English or had 
difficulty in communicating. So that made it a little more 
frustrating because we had to wait for somebody to translate it 
into English, and once the information passes from one person 
to the other, it changes. It starts to change. I think that 
also added to the aggravation and confusion at Costa Concordia.
    Mr. Sharma. And a lot of times we tried to find people who 
spoke English and other languages when the announcement was 
being made to let us know what was the message. So we relied on 
like third parties to tell us what was happening.
    So like Divya said, the life jacket location would have 
been very nice because I actually had no idea. If it was not 
for our teamwork that she knew where the life jacket were, and 
we would not have had to go all the way from the third deck to 
ninth deck to just get our life jackets. That was a lot of time 
and a lot of energy wasted, and then coming down on fourth deck 
again just for the sake of a life jacket.
    We did not care at that point for any other luggage or any 
other things that were in the room to leave behind. It was only 
for the sake of the life jacket that we had to go up there.
    Mr. Cummings. Let me ask you this. You said that you had 
had contact with the crew folks, and I think I understood you 
to say they compensated you for certain losses that you may 
have sustained; is that right?
    Mr. Sharma. So directly for what we paid for the cruise 
alone. So we had made our separate arrangements to get to the 
port, stay in a hotel, book our flights separately, which was 
not done with the Costa, which was done with other companies 
that we flew with. So the only thing that they refunded 
immediately was the charge on the credit card from Costa 
Concordia.
    Mr. Cummings. And to your knowledge, just in another 
minute, Mr. Chairman, to your knowledge, have you now released 
them from any further liability or have you been paid up to a 
certain point and then if there are other--in other words, if 
you had other expenses or you wanted to claim any kind of 
damages, have you signed anything that says the company is no 
longer liable?
    Mrs. Sharma. No. No, we have not at this point.
    Mr. Sharma. No, we have not.
    Mrs. Sharma. Because we still haven't--they did send us a 
claim form for all the things that we had lost in our cabin, 
but we have not signed anything that releases them for further 
liabilities, no.
    Mr. Sharma. And also they had mentioned in one of their 
letters that they will try to recover our belongings and get 
back to us. At this point they would like to know the estimate 
of the valuables that we have left behind in case they are 
unable to get those to us.
    Mr. Cummings. I have got to ask you this. Would you take a 
cruise again?
    Mrs. Sharma. Not in the near future, no.
    Mr. Cummings. No?
    Mrs. Sharma. No.
    Mr. Cummings. Thank you very much.
    Mrs. Sharma. Thank you.
    Mr. LoBiondo. Ms. Brown, anything else?
    Ms. Brown. I yield back my time.
    Mr. LoBiondo. Mr. Larsen.
    Mr. Larsen. No, thank you.
    Mr. LoBiondo. Well, Mr. and Mrs. Sharma, thank you. Thank 
you very much for being here. It was very thorough, very 
compelling, and I am sure very difficult. But it helps us to 
piece together what our mandate was for getting a complete 
picture here. At least from my standpoint and, I think, from my 
colleagues, it again points to one individual whose incredible 
lack or loss of judgment has resulted in a lot of anguish and 
much worse for some others. So we believe we will be following 
up with the investigation as it continues, but your being here 
today was extremely helpful. We thank you very much.
    We do not have any more questions. We are now going to take 
a brief adjournment to go to our third panel.
    Mrs. Sharma. Thank you.
    Mr. LoBiondo. Thank you.
    [Recess.]
    Mr. LoBiondo. We will come back to order and recognize our 
third witness panel. First is Ms. Christine Duffy, who is 
president and CEO of the Cruise Lines International 
Association. Ms. Duffy is accompanied by the association's 
executive director, vice president Michael Crye.
    Also on the panel is Mr. George Wright, the senior vice 
president for marine operations at Princess Cruises. Mr. Wright 
is accompanied by Ms. Vicky Rey, vice president of guest 
services at Carnival Cruise Lines.
    Next is Captain Evans Hoyt, who is the captain of the 
Norwegian Cruise Lines' Pride of America, the only U.S.-
flagged, high-capacity cruise vessel currently in operation.
    And our final witness is Mr. Brian Schoeneman, who is the 
legislative director for the Seafarers International Union.
    We thank you for being here. We welcome you. Ms. Duffy, you 
are free to proceed.

 TESTIMONY OF CHRISTINE DUFFY, PRESIDENT AND CEO, CRUISE LINES 
    INTERNATIONAL ASSOCIATION, ACCOMPANIED BY MICHAEL CRYE, 
     EXECUTIVE VICE PRESIDENT, CRUISE LINES INTERNATIONAL 
  ASSOCIATION; CAPTAIN GEORGE WRIGHT, SENIOR VICE PRESIDENT, 
MARINE OPERATIONS, PRINCESS CRUISES, ACCOMPANIED BY VICKY REY, 
  VICE PRESIDENT, GUEST SERVICES AND SUPPORT, CARNIVAL CRUISE 
LINES; CAPTAIN EVANS HOYT, MASTER OF NORWEGIAN SPIRIT AND PRIDE 
 OF AMERICA, NORWEGIAN CRUISE LINES; AND BRIAN W. SCHOENEMAN, 
      LEGISLATIVE DIRECTOR, SEAFARERS INTERNATIONAL UNION

    Ms. Duffy. Thank you, Mr. Chairman. Chairman LoBiondo, 
Ranking Member Larsen, members of the subcommittee, thank you 
for inviting me to testify today.
    My name is Christine Duffy. I am president and CEO of 
Cruise Lines International Association, also known as CLIA. 
Sitting with me today is Michael Crye, executive vice president 
of technical and regulatory affairs and CLIA. Michael is a 
retired captain who served 24 years in the Coast Guard.
    Before I begin my remarks, let me just state also that the 
cruise industry and CLIA work very closely with and depend upon 
the Coast Guard, and we wish to express our condolences for the 
loss that they had last evening.
    I also want to acknowledge and express our apologies and 
thanks to Mr. and Mrs. Sharma who appeared today and testified 
to tell their story and their experience.
    I would certainly prefer to be with you today under very 
different circumstances. The Concordia incident has had a 
profound impact on our entire industry, and I speak for all of 
our cruise line members in expressing our deepest condolences 
to everyone that has been affected by this tragedy. As an 
industry, we are wholly committed to examining what happened, 
identifying lessons that can be learned, and to working with 
governments and regulators to insure that recommended measures 
are adopted.
    My remarks today will not focus on speculation over the 
causes of the Concordia incident. There are ongoing 
investigations by Italian maritime and law enforcement 
authorities, and we hope to have their conclusions as soon as 
possible.
    CLIA represents 26 major cruise lines serving North America 
and also serves more than 16,000 affiliated travel agents and 
agencies across the United States. Last year our member lines, 
211 ships, served 16.3 million passengers, up from 7.2 million 
in the year 2000.
    Safety is this industry's number one priority. It is 
absolutely essential to our business. Nothing is more important 
than that. Every aspect of the cruise experience is heavily 
regulated and monitored under both U.S. and international 
maritime law. A United Nations agency, the International 
Maritime Organization, or IMO, mandates global standards for 
the safety and the operation of cruise ships.
    The most important of these standards are detailed in the 
International Convention for the Safety of Life at Sea, or 
SOLAS, which provides the uniform worldwide set of mandates 
regarding safety equipment, crew training, evacuation, and 
emergency procedures and navigation safety standards.
    A vital part of SOLAS is the international safety 
management code, which assigns safety responsibilities and 
procedures so that every member of the onboard crew and cruise 
lines understands and is trained in his or her precise 
responsibilities, especially in the event of an emergency. The 
stringent standards embodied by the International Maritime 
Organization, SOLAS, and the ISM code have multiple layers of 
enforcement at the international, flag state, and port state 
level.
    In the United States, as we heard earlier, the U.S. Coast 
Guard enforces all maritime regulatory requirements through the 
announced and unannounced inspections and a rigorous annual 
inspection of every ship that embarks passengers in the United 
States. At any time the local coast guard captain of a port can 
prevent any cruise ship from departing if a serious violation 
of any regulation is found.
    Because of the cruise industry's commitment to safety, 
supported by strict regulations and vigorous enforcement 
mechanisms, cruising is, as we heard from Vice Admiral Salerno, 
one of the very safest forms of recreational travel in the 
world. In the decade prior to the grounding of the Concordia, 
there were a total of 28 fatalities on cruise ships related to 
operational casualty out of 223 million passengers and crew who 
sailed during those years. Twenty-two of those fatalities 
involved crewmembers, and six involved passengers.
    Now, let me be very clear. Not a single fatality is 
acceptable to our industry, and we have and we will continue to 
work hard to prevent such incidents. We treat every one of 
these tragedies as a profound reminder of our duty to 
continuously improve our practices, procedures, and 
performance.
    The Concordia incident is no different. Almost immediately 
following the accident CLIA member cruise lines launched a 
cruise industry operational safety review, which is a 
comprehensive assessment of the critical human factors and 
operational aspects of maritime safety. This review is underway 
and will allow our cruise line members to share best practices 
on operational safety procedures, consulting with independent 
experts and collaborating closely with governments and 
regulatory bodies to implement necessary changes to enhance 
safety.
    I am pleased to report that on February 9th, CLIA members 
instituted the very first of these recommendations, announcing 
the new muster policy requiring that mandatory muster drills 
for embarking passengers be conducted prior to departure from 
port. This new policy, which has been undertaken voluntarily by 
CLIA members both here and abroad, exceeds existing legal 
requirements and became effective immediately.
    As additional best practices emerge from our review, 
recommendations will be made on an ongoing basis. This 
continues a long tradition in our industry to focus on 
continuous improvements to proactively improve safety 
procedures.
    The cruise industry also has a strong record of working 
with Congress to initiate and enact new laws that are dedicated 
to advancing passenger safety. CLIA worked with many members of 
this subcommittee to assist in the development and enactment of 
the Cruise Vessel Security and Safety Act in July of 2010, 
bringing consistency and clarity to the security and safety 
regulations for the cruise industry in the United States.
    CLIA member cruise lines are already in compliance with all 
effective provisions, including required crime reporting and 
logging, the use of latch and computerized key technology, 
maintenance of 42-inch rail heights in all passenger areas, and 
peep holes in all cabins. We will continue to work with law 
enforcement agencies both in the United States and around the 
world to ensure that all of the bill's provisions are fully 
implemented.
    Thank you again for the opportunity to provide this 
testimony and for us to detail the substantial oversight and 
accountability of cruise lines both in the United States and 
internationally. We remain fully and deeply committed to 
continuous enhancement of our guests and crewmembers, as it is 
without question our most important priority.
    I look forward to responding to your questions. Thank you.
    Mr. LoBiondo. Thank you, Ms. Duffy.
    Mr. Wright, you are recognized.
    Mr. Wright. Mr. Chairman, Ranking Member Larsen, and 
members of the subcommittee, my name is George Wright. I am the 
senior vice president for marine operations for Princess 
Cruises, which is a subsidiary of the Carnival Corporation.
    On behalf of the entire Carnival family I want to say first 
of all that we are all deeply saddened by this tragic accident 
involving the Costa Concordia. Our thoughts and our hearts are 
with the passengers, the crew, and their families.
    The safety of our passengers and crew are our top priority, 
and every day we strive to achieve high levels of safety, and 
we are committed to intensifying this effort as much as we can.
    Prior to joining Princess Cruises, I served in the Coast 
Guard for 27 years, retiring in the rank of captain. My last 
assignment was the Coast Guard Captain of the Port, Los 
Angeles-Long Beach, and we were responsible for all Coast Guard 
operations in southern California. My duties varied widely from 
field operations to headquarters, including serving as a member 
on the U.S. delegation to the International Maritime 
Organization where we were committed to efforts to emphasize 
and focus on the role of the human element in preventing 
maritime casualties through the Coast Guard's Prevention 
through People Program.
    My focus at Princess is to lead a team to provide safe, 
secure, and environmentally sound operations in compliance with 
the rules and regulations of the IMO, the United States, and 
other countries as well as with local, State, and regional 
requirements. We accomplish this through the establishment of 
policies and procedures that meet or exceed national and 
international requirements and through training, audits and 
inspections, both internal and external.
    With respect to verifying compliance externally, the Coast 
Guard as the port state control authority in the United States 
can board and inspect our ships at any time. Regular Coast 
Guard inspections are conducted on cruise ships operating out 
of U.S. ports at least twice a year.
    Training is an integral part of safety, and we have strict 
standards for the qualifications of our captains and our deck 
officers, which include formal training and years and years of 
experience. Prior to being hired, our deck officers must be 
licensed to perform the functions required for their level of 
responsibility onboard. Officers and crewmembers undergo 
regular safety and emergency training.
    Our crewmembers focus on the mission of safe and secure and 
environmentally sound operations every day. Every crewmember is 
given a safety briefing and instruction as to their emergency 
duties based on their specific position on board when they sign 
onto the ship. They also participate in onboard safety drills, 
including fire and abandon ship drills, and attend at least one 
fire and abandon ship drill every month.
    Specific lifesaving and firefighting training is also 
provided in either shore-based or shipboard programs. We 
regularly inspect our lifesaving and other safety equipment, 
including lifeboats and life jackets to insure they are 
available and always in good working condition. Educating 
passengers regarding safety procedures is equally important.
    Regarding musters, CLIA announced a new muster policy, 
voluntarily adopted by all member lines, including Princess 
Cruises, which exceeds international requirements by calling 
for a mandatory muster of all embarking passengers prior to 
departing from port. During these musters key emergency 
procedures and where to go in case of an emergency are 
explained to the passengers.
    And finally, the Carnival group of companies have engaged 
outside industry leading experts in the fields of emergency 
response, training, and implementation to conduct an audit of 
all of the company's emergency response and safety procedures, 
and to conduct a thorough review of the Concordia accident. 
This company-wide initiative will identify lessons learned and 
best practices to further ensure the security and safety of all 
of our passengers and crew.
    We are committed to taking the results of the internal 
audit and providing the recommendations to the industry-wide 
operational safety review so that the entire cruise industry 
can benefit from our learnings.
    I appreciate the opportunity to appear before the 
subcommittee today and look forward to answering any questions 
you may have for me.
    Thank you.
    Mr. LoBiondo. Thank you, Mr. Wright.
    Captain Hoyt, you are now recognized.
    Captain Hoyt. Chairman LoBiondo, Ranking Member Larsen, 
honorable members of the subcommittee, before I begin my formal 
statement, I would like to give my condolences to those members 
of the U.S. Coast Guard who we have lost and also all those who 
have lost loved ones or who have suffered loss on the Costa 
Concordia.
    My name is Evans Hoyt, and I currently serve as captain of 
Norwegian Cruise Lines' Pride of America and have more than 30 
years of seafaring experience. I am pleased to testify before 
you this morning on behalf of the entire cruise industry. All 
of us in the cruise industry appreciate the time and 
consideration you are applying to this important issue, and we 
particularly appreciate you giving us this opportunity to 
appear before you and address your concerns.
    While I am unable to provide specific information or 
speculate on the causes of the Concordia incident, I can 
provide the subcommittee expert opinion on the training of 
cruise ship captains, ship oversight, and emergency 
preparedness.
    I am a captain for Norwegian Cruise Lines which operates 
both foreign-flag ships and a U.S.-flag ship. I have commanded 
four of Norwegian's cruise ships since 2005 and have served as 
master in the U.S. and international fleet. Prior to joining 
Norwegian Cruise Lines I served as captain of the SS Cape 
Island for the U.S. Maritime Administration, conducting voyages 
in the Persian Gulf carrying military cargo and personnel in 
support of Operation Iraqi Freedom.
    I graduated from the U.S. Merchant Marine Academy at Kings 
Point in 1982, earned my Master Mariner's license in 1988, 
taking my first deep sea command in 1990.
    As the captain, the master in command of a cruise ship, my 
highest priority is the safety of the passengers and 
crewmembers. I take into account every factor possible in 
determining the best course of action to insure the safety of 
my passengers and crew.
    The cruise industry is a heavily regulated industry with 
strong enforcement mechanisms. The International Maritime 
Organization mandates global standards for the safety and 
operation of cruise ships through adoption of treaties, 
regulations and regulations. The most important of these 
treaties is the International Convention for the Safety of Life 
at Sea, ratified by the United States and most other nations. 
SOLAS provides comprehensive mandates on safety equipment, 
safety procedures, and emergency preparedness.
    The laws governing the operation of cruise ships, whether 
they are U.S.- or foreign-flag are comprehensive and stringent. 
Onboard operations are prescribed by an established mandatory 
safety management system which outlines shipboard and crew 
procedures necessary to prepare and respond to emergency 
situations.
    Written procedures for emergency preparedness, response to 
potential emergency situations, and an established program for 
shipboard personnel drills and exercises are required. These 
SMS procedures must be fully documented, and are subject to 
both internal and external audits by a comprehensive network of 
maritime experts from the flag state and shipping 
classifications' societies.
    The U.S. Coast Guard conducts oversight of cruise ship 
operations through its flag state regulatory program for U.S. 
flag vessels and its port state control program for non-U.S.-
flag vessels. The Coast Guard conducts annual inspections and 
regularly reinspects all cruise ships that embark passengers in 
U.S. parts. All seafarers, including captains and bridge 
officers, must be trained in accordance with the stringent IMO 
standards. The training of cruise ship officers and crew sets 
some of the highest standards in the maritime industry.
    While cruise ships remain an extremely safe form of 
transportation, we as captains train for worst case situations 
with the safety of passengers and crew given the highest 
priority.
    Another critical part of a captain's duties and 
responsibilities is the management of the bridge team or bridge 
resource management. Bridge resource management is a process by 
which all members of the bridge team coordinate expertise and 
maximize effectiveness of onboard systems and procedures during 
critical operations to enhance navigational safety.
    Additionally, all crewmembers receive training in emergency 
procedures, safety, security, and first aid. This training 
ensures the crewmember is familiar with the emergency 
operations and location of emergency equipment on that 
particular ship.
    Crewmembers are also required to participate in emergency 
drills. This training includes a mock search and rescue of 
passengers trapped in their staterooms. Safety in Life at Sea 
also addresses recordkeeping for these drills and training 
sessions.
    The cruise industry and entire maritime community is 
constantly reviewing and enhancing the operations and safety 
practices of ships in any way that can improve the safety and 
security of both passengers and crew. The cruise industry also 
operates to individual standards that are above the 
requirements of all agencies that regulate the industry.
    I again want to thank the subcommittee for the opportunity 
to testify this morning on behalf of the cruise industry and 
cruise ship captains. The cruise industry is committed to 
providing a safe and secure environment for everyone onboard 
our ships. Put simply, the well-being of our passengers and 
crewmembers is and will remain our highest priority.
    I would be pleased to answer any additional questions the 
subcommittee might have regarding these topics. Thank you.
    Mr. LoBiondo. Thank you, Captain Hoyt. I am certain we will 
have some questions for you.
    Mr. Schoeneman.
    Mr. Schoeneman. Thank you, Mr. Chairman.
    Good afternoon, Mr. Chairman and Ranking Member Larsen, 
members of the subcommittee. My name is Brian Schoeneman, and I 
am the legislative director for the Seafarers International 
Union of North America. We represent unlicensed merchant 
mariners in a variety of capacities in both the domestic and 
international trades, including the cruise industry.
    On behalf of President Mike Sacco of the SIU and all of our 
members, we want to thank you for conducting this hearing and 
for all of your continued support of the United States Merchant 
Marines.
    The Costa Concordia accident has highlighted the critical 
need for qualified mariners and well trained crewmembers 
onboard cruise ships. It is especially important given that the 
vast majority of the shipboard personnel on cruise ships are 
hospitality staff, not mariners, that all crewmembers are well 
trained. In situations where every second counts, training 
makes all the difference.
    Training has been a key benefit to SIU membership since our 
founding in 1983. Our training center, the Paul Hall Center for 
Maritime Training and Education, has been training mariners for 
almost half a century, and since its founding, the center has 
trained over 185,000 students and issued more than 250,000 
safety and continuing education certificates to mariners. We 
have been training cruise ship personnel since 1978.
    We were proud to be a part of Norwegian Cruise Lines' 
America's Reestablishment of the American Flag Cruise Industry 
in 2005, and our members currently sail alongside Captain Hoyt 
on the Pride of America.
    In order to assist in the training of cruise ship personnel 
for NCL, we opened a new, state-of-the-art training facility at 
Barber's Point in Hawaii. The facility provides basic safety 
and cruise ship center training to meet the needs of our U.S.-
flag fleet and the increased demand for mariners in the 
Hawaiian trades. Since opening, we have trained over 4,000 
crewmembers and have provided training to outside groups, 
including the Hawaiian National Guard.
    All of our training programs are designed to comply with 
the SOLAS requirements that were discussed earlier, the 
standards of training certification and watch keeping currently 
proved by the IMO, and all Coast Guard regulations. The 
specifics of our course curricula are available in my written 
testimony.
    At the end of the day, when it comes to training, all of 
our crewmembers, mariner and non-mariner alike, must know what 
to do in the event of an emergency not simply because they must 
do so under the law, but because so many lives depend upon 
their training and professionalism. And while we are confident 
that we provide the best training the world and that the Coast 
Guard is there to insure that our mariners have met all their 
legal requirements, we are less confident of this when it comes 
to vessels that are sailing under flags of convenience.
    We believe that the proliferation of the use of FOCs, 
especially in the cruise industry, creates a growing concern 
for safety. Today the vast majority of cruise ships calling on 
U.S. ports are sailing under the Bahaman, Panama, or Bermudan 
flags of convenience, among others.
    Now, to be clear, the issue is not whether proper standards 
for crewmember training are available internationally. We feel 
that SOLAS and STCW requirements are generally adequate so long 
as they are complied with. With the continued concern over 
fraudulent mariner documents and a world economic crisis that 
has put millions out of work, it is critical we know that the 
mariner who reports for duty is who she says she is, and that 
the documents she is providing is what it purports to be.
    That is best done under a system with strong flag state 
control, as we have in the United States, as Admiral Salerno 
made clear this morning.
    We are also concerned with the issue of communication 
between crewmembers and passengers. While this is not an issue 
on U.S.-flag vessels where most of the crew are American and 
speak English, on ships documented under an FOC, the crew is 
often of various nationalities and often do not speak the same 
language. Even onboard the Costa Concordia, which was an 
Italian-flag ship not under an FOC, there were crewmembers from 
over 40 nationalities, and as our individuals who were onboard 
the vessel have testified this morning, there were issues with 
communication and a language barrier onboard that ship that 
contributed to some of the issues that were found there. We 
find it hard to believe, but breakdowns in communications in a 
crisis, they are simply going to be inevitable.
    Now, while crew training and communication are important, 
we believe that in best order to protect the passengers, the 
passengers themselves must feel confident that they know what 
to do in the event of an emergency, and that is why we strongly 
support the new emergency drill policy that CLIA has adopted 
that has been spoken of multiple times here this morning.
    This policy now requires mandatory musters for all 
embarking passengers prior to departure from a port, and as 
current law notes, that is not the case under IMO regulations. 
They simply require within 24 hours of embarkation a muster 
drill.
    As the Costa Concordia accident has proven, this is simply 
not good enough. Accidents can happen at any time, and 
passengers must understand what to do in an emergency even 
before the ship gets underway. That is just common sense.
    In conclusion, as we all work together to avoid accidents 
like the Costa Concordia, we must always remember that the best 
way to protect passengers and respond to an emergency is to 
insure that crewmembers are well trained and professional and 
passengers and crew alike know what to do in an emergency. 
Training saves lives. It is that simple.
    Thank you for allowing us to testify today, and I would be 
happy to answer any questions you may have.
    Mr. LoBiondo. Thank you very much.
    Captain Hoyt, I would like to start with you, and I thank 
you again for being here and your testimony. I do not believe 
we have been acquainted before today, but I come away with the 
distinct impression that if you had been the captain of the 
Costa Concordia, we would not be having this hearing today.
    So I believe you heard Mr. and Mrs. Sharma's testimony.
    Captain Hoyt. Yes, sir.
    Mr. LoBiondo. Could you walk us through if you were a 
captain, and you are captain of Pride of America, or a ship 
that had an unforeseen accident how after the accident you 
would have handled that situation or you would have instructed 
the crew to handle that situation?
    Captain Hoyt. Well, I would not want to comment on the 
actual Costa Concordia accident.
    Mr. LoBiondo. We will do a hypothetical.
    Captain Hoyt. In the event of an accident, we have the 
processes and procedures in place to put out general alarm at 
the moment where you need to bring passengers to muster 
stations.
    Mr. LoBiondo. OK. I understand with the nature of the 
investigation you probably cannot go there.
    Can you say as captain of the Pride of America, would you 
have turned off the track for any reason in that similar 
situation?
    Captain Hoyt. I do not see a situation where we would put 
ourselves into a similar situation as that, no, sir.
    Mr. LoBiondo. I think probably the balance of the questions 
would be a problem for you. I do not want to put you in that 
situation.
    Ms. Duffy, if we could turn to you, have you made or do you 
plan to make other policy changes in response to this accident?
    Ms. Duffy. As I mentioned, we announced the operational 
safety review almost immediately following the Concordia 
incident. We are working through a process with our member 
lines, who are also conducting internal reviews, which is also 
required whenever there is an incident like this under the 
safety management code. So this review will have several 
different phases that it will go through, and there will be, we 
anticipate, other best practices and lessons learned that we 
will be able to implement and communicate particularly as the 
Italian authorities complete the ongoing investigation.
    Mr. LoBiondo. Does the association have a model policy on 
the abandoned ship policy?
    And if so, have your members adopted these policies?
    Ms. Duffy. The association sits at the International 
Maritime Organization as the nongovernmental organization and 
with all of our members follows the regulations that are in 
place under the SOLAS, which was discussed, as well as the 
international safety management code and all of the crew 
training and emergency preparedness that is required of our 
members.
    Mr. LoBiondo. So in light of all this, have you gone back 
and reviewed crew training on all of your ships since the 
accident?
    Ms. Duffy. That is one of the areas under the operational 
safety review particularly focused on human factors, which will 
include crew training.
    Mr. LoBiondo. Thank you.
    Mr. Schoeneman, can you tell us what the difference is 
between training aboard a U.S.-flag cruise vessel and a foreign 
vessel operating in compliance with training standards?
    Mr. Schoeneman. Sure. At least under our situation, we make 
sure that all of the members of the Seafarers receive the same 
training that qualifies them to sail both on a U.S.-flag vessel 
as well as on a foreign-flag ship.
    In general, the requirements are fairly similar. STCW and 
SOLAS requirements match what the Coast Guard requires for our 
members. All of our crewmembers on board U.S.-flag vessels, not 
simply the mariners, but also the hospitality staff, are 
required to take a number of course in addition to the standard 
basic life safety training, which provides firefighter 
training, personal survival training. They also get training on 
how to handle crowd management as well as human behavior in an 
emergency. So the folks at least are given the basic training 
to be able to direct passengers to their muster stations, get 
them on board their life crafts, and get those life crafts off 
the ship in a timely fashion.
    Some of our members are also given specific training on 
survival craft operations. We have a 37-hour course that trains 
members to do that.
    Mr. LoBiondo. Excuse me. How many hours?
    Mr. Schoeneman. Thirty-seven hour.
    Mr. LoBiondo. OK.
    Mr. Schoeneman. And we also have training for search and 
rescue onboard the vessel, as well as for folks who are 
responding. We have got a very good track record. Members of 
our union have responded in a number of emergency situations, 
not simply on cruise ships but also whenever there has been a 
need to get folks off of objects very quickly. In particular, I 
would highlight the committee recognizing that our members were 
the first on scene for the Miracle of the Hudson in New York 
when the airliner landed in the Hudson. Members of the SIU 
onboard ships in the Hudson River were able to take the crew 
folks off that passenger airliner very quickly. It is part of 
the training that all of our members are given, and we are very 
proud of what they have been able to accomplish.
    Mr. LoBiondo. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    I do not know why it was so ingrained in me. I could have 
been watching a lot of television, but this pop culture phrase 
certainly that was ingrained in me growing up was that the 
captain goes down with the ship. It is like the ultimate 
responsibility, you know, goes with the person in charge of the 
ship, and that lesson, you can apply that anywhere. Somebody 
has to be responsible when something is underway.
    I think that is why for U.S. viewers of news on this 
particular case, we are in such shock hearing about stories of 
this particular captain. It just runs counter to sort of 
everything that many of us just grew up learning, and so that 
is one of the reasons why we are here today, to try to 
understand not just what is behind that idea, but you know, 
what you all do on a cruise vessel to ensure that the 
responsibility is distributed and folks know what their jobs 
are. Ultimately, there is one person who knows what every job 
is, and that is the captain, but everyone else is supposed to 
do that job and this still gets into the question of training 
and so on that the Chairman has been asking about.
    So a couple of questions on that point about the 
responsibility on the ship. Captain Hoyt, the cruise line 
industry, I think, under SOLAS has to effectually evacuate 
people within 30 minutes from a ship under SOLAS, as I 
understand. How does that happen? How do you train for that? 
How do you do that?
    Captain Hoyt. The training is constant and ongoing. I mean, 
the keys of it are the weekly trainings that we have, the all 
hands crew training in which we launch boats and have scenario-
based training.
    In addition to that there is constant training going on 
throughout the month. Every day there is classes going on for 
one team or another that is part of the evacuation process, and 
it is through training and drilling that you are able to 
accomplish that mission.
    Mr. Larsen. Does training take place while you are underway 
with the crew that is on the ship?
    Captain Hoyt. Yes, sir. It is ongoing throughout, 
throughout the operation.
    Mr. Larsen. Perhaps for Mr. Wright, are you captain?
    Mr. Wright. A retired captain.
    Mr. Larsen. That is a captain. Captain Wright, with regard 
to that training, when folks report for duty, you know, for the 
cruise season, how much contact in your particular company, how 
much contact do you have with folks before they even get to the 
ship so that they are prepared for the first cruise as well as 
when they get the ongoing training as you are working through 
the season?
    Mr. Wright. So they undergo all of the mandatory training 
that my colleagues have identified under STCW, and then we have 
a team of fleet safety instructors, and they have been trained 
in all of the required STCW mandatory training, such as 
proficiency in survival craft and rescue boats and 
survivability and all those, crowd management, crisis 
management, and they will go and stay on the ship, one or two 
trainers, for a week or two, maybe three times a year, and they 
then train the crew right on scene with the ship's equipment, 
and spend the time that they can in that situation because they 
are taking away from their other duties. So they fit that in 
around the schedule.
    And so it is pretty comprehensive training for all of the 
people that have those emergency duties, including the muster 
personnel and stairway guides, so that if there is a horrible 
panic situation like that, they know the proper information to 
provide, including making sure that the stateroom stewards turn 
on the emergency channel that shows the passengers as soon as 
they get in the cabin, you know, the emergency procedures that 
they should follow and also show them where their life jackets 
are.
    So that is the kind of ongoing thing that we do onboard the 
ship.
    Mr. Larsen. Mr. Schoeneman, can you talk about the 
retraining that has occurred at Barber's Point? You talked 
about training 4,000 folks, but certainly folks have to keep 
coming back through.
    Mr. Schoeneman. Sure. We do upgrades and upgrade training 
for all of our mariners based on the amount of time that they 
have been at sea. They are able to come back either to Barber's 
Point or to Piney Point in Maryland to get upgrade training.
    We provide as much as we possibly can to our members to 
make sure that they know that they have the ability to come 
back and get that training, and it is a union benefit. 
Generally we do our best to make sure that when they walk up 
the gang plank that they know enough and are familiar enough 
with both the systems onboard the vessel, as well as general 
training guidelines, so that they can do their jobs as well as 
make sure they can get passengers on and off the ship in an 
emergency in the most efficient manner possible.
    So we put a very high emphasis on training with the SIU, 
and we look forward to working with CLIA and the others as they 
are working on their standards, and we would like to be a part 
of that.
    Mr. Larsen. Captain Hoyt, how often do your crews practice 
mustering thousands of passengers?
    Captain Hoyt. Three times per month.
    Mr. Larsen. That is three times per month?
    Captain Hoyt. Is the all hands training, emergency drill. 
Four times a month we do or the fourth week in the month we do 
part of the entire muster. Three times in the month we go 
through the entire process, including launching of lifeboats. 
So from the initial----
    Mr. Larsen. Including launch?
    Captain Hoyt. Yes. So from the initial stages of a planned 
scenario emergency up through the evacuation process.
    Mr. Larsen. Do you have any unplanned scenario emergencies?
    Captain Hoyt. Yes, we do.
    Mr. Larsen. You do? What is the difference between a 
planned scenario emergency and an unplanned emergency?
    Captain Hoyt. Well, we have scheduled drill times.
    Mr. Larsen. Right.
    Captain Hoyt. You are taking 1,000 crewmembers and putting 
them through these processes. So you have to pick the times at 
which to do that.
    Mr. Larsen. I see. OK.
    Captain Hoyt. In addition to that, we will also have 
unplanned emergencies, things that would activate certain sets 
of emergency response teams as part of a surprise drill just to 
help maintain readiness.
    Mr. Larsen. Yes. OK. I think just one and maybe back to 
Captain Wright since you have had some experience up there. 
Well, I do not want to ask the question this way, but tell me 
about planning for the Arctic and the Antarctica, applying this 
kind of training into those settings.
    Mr. Wright. So the planning for cruising in those regions?
    Mr. Larsen. Planning for cruising, but planning for the 
emergencies in those settings.
    Mr. Wright. Right. We have cruised in Antarctica several 
years, and the measures that we go to are to conduct an 
exhaustive risk assessment of the whole operation. Some of the 
measures that we implemented as a result of that risk 
assessment were to do some extra damage control training and 
provide equipment onboard the ship based on our experience in 
the military, and it was so successful that we decided to 
implement that on other ships.
    We also man the ship with two captains so that they could 
run on/off, and there was always a captain on the bridge or 
available to be on the bridge. We brought an ice pilot from 
Argentina to be on the ship to give us advice as well as 
another retired Coast Guard captain whose expertise was in 
icebreaker, full blown icebreaker duty through most of his 
career. So these two advisors would advise the ship, as well as 
we positioned a member of the Marine Operations Department in 
the Marine Rescue Coordination Centre in Punta Arenas. In the 
event the ship ran into the worst case scenario, we would 
already have a company, a Princess Cruise's employee in the MRC 
Rescue Centre, and then finally we employed somebody like 
myself on the ship so there would be a senior ranking company 
officer there to immediately launch any kind of emergency 
operation we needed to do.
    Mr. Larsen. Just one last question. Will these be applied 
in the Arctic as well or pretty much these are Antarctica?
    Mr. Wright. We would look at applying any extra procedures 
in any region. We would always take a look at that.
    Mr. Larsen. Yes, right. Thank you, Mr. Chairman.
    Mr. LoBiondo. Ms. Brown.
    Ms. Brown. Thank you.
    I think I will start with Ms. Duffy. I have a couple of 
questions. One, you mentioned operation safety, and I know that 
you are conducting a policy review. When do you think it is 
going to be completed?
    I know you are changing the muster drill, but other safety 
recommendations.
    Ms. Duffy. The process will be ongoing. So as we identify 
areas for best practices, we want to be able to proceed right 
away and have those implemented.
    And I should say that this work, while very specific and 
the Concordia incident was a catalyst for announcing this 
particular operational safety review, within CLIA we have at 
least 25 standing committees that meet on a regular basis 
throughout the year focused on issues of safety, security, 
environmental, all different aspects that brings different 
cruise line members together with the CLIA technical and 
regulatory team that we have in place, which are all ex or 
retired Coast Guard people with lots of expertise in these 
specific areas.
    So this is a process of continuous improvement all the 
time.
    Ms. Brown. Having been a former member of CLIA, I heard a 
lot of discussions about English, and I know we all think 
everybody should speak English, but one of the reasons why you 
do cruises is because you get that international flavor, 
whether it is just to the Bahamas or Mexico. But one thing that 
is universal is money. Everybody understands you do not have 
enough.
    The question is safety. Are there ways to communicate that 
are not English that we could make sure everybody understands 
the procedure whether they speak English or whatever they 
speak?
    I mean, I visit a church. They have got 36 different 
languages in that church. So can you speak to that?
    Ms. Duffy. As was said earlier, the crewmembers that are 
recruited to be put on a ship speak multiple languages, and 
there is a language of the ship, and that is the primary 
language that the crew communicates with onboard that ship. 
However, there are multiple languages spoken and focused on the 
demographics or the makeup of the passengers who are on that 
ship.
    So English is often spoken as one of the languages that you 
would find on any of the ships, but there is always an official 
language that the crew uses. I believe that for the bridge team 
and the team in the engine room that English is the 
international language for those groups.
    Ms. Brown. Let me hear Captain Hoyt. I was very impressed 
with your expertise and your training. You know, you could be 
my captain any time. However, that training and expertise, I do 
not know how you deal with common sense because it seems like 
this particular captain lacked common sense, and that is 
something that my grandmamma had, and she did not go to 
college.
    So what can we do to identify that what happened did not 
happen again? Why was this captain allowed to change the 
preprogramming by the company? I mean, I know you need some 
flexibility, but I am just curious.
    Captain Hoyt. Well, within our company there is a process 
by which a passage plan is developed. It is then confirmed by 
other members of the bridge team, and then it is implemented 
after a full brief of the navigation staff prior to departure. 
Any deviation from that that would be necessary for reasons of 
safety would engender a new passage plan or an immediate 
deviation if necessary, which would then be discussed with the 
bridge team as a whole.
    We utilized a navigator/co-navigator system on the bridge 
of our ships, and that is how that system works for us, and 
that is what keeps a check and balance in the mix.
    Ms. Brown. Mr. Wright, can you answer that also?
    Mr. Wright. Very similar. The course is plotted by the 
team. You are required to have a voyage passage plan from berth 
to berth, and that is plotted in either electronic chart or 
paper chart or whatever system the ship is using, and that is 
all discussed ahead of time, a day or two or three, with the 
bridge team and the captain, agreed, signed off by the captain, 
and any deviation to that would be for avoiding another ship, 
weather, or some other type of situation.
    If there was a reason to deviate, then the team would 
regroup, decide what to do, approve it, again double check it 
just like Captain Hoyt, and then that is your passage plan.
    Ms. Brown. With the railroads, I mean, if a car goes off a 
certain track, then the home office is notified. Is that true 
with the crews?
    I mean because this particular captain, this is not the 
first time that he deviated from the pattern that he is 
supposed to.
    Mr. Wright. The ship is the best to lay down the track for 
their voyage from berth to berth because they are there. They 
are extremely familiar with the currents, the weather 
conditions, and the traffic pattern. So they set the chart.
    Now, in an electronic system, if you deviate from that 
track the bridge of the ship will get an alarm, and they would 
react to that. For example, if the ship is being set off 
course, but the office does not get notified of every 
deviation, and the office does not plan the berth to berth 
voyage for the ships. The ships are the best ones to do that.
    Ms. Brown. So it is so important that we have the right 
captain on the ship.
    Mr. Wright. It is important to have the right bridge team.
    Ms. Brown. The whole team.
    Mr. Wright. The whole team.
    Ms. Brown. OK.
    Mr. Wright. And so we have experience with the Center for 
Maritime Training, simulator for maritime training, where we 
will make sure we get all of our bridge officers and 
particularly all of the senior officers that are in charge of a 
watch through simulator training time, and also the academic 
side where they are taught about the human element. They are 
taught about incidents that have happened in our own companies 
within the Carnival Corporation, and then they run practices to 
make sure that does not happen in the simulator, so that it 
does not happen on the ship.
    Ms. Brown. Well, thank you very much, and I yield back the 
balance of my time.
    We will all learn from this experience, I know. Thank you.
    Mr. LoBiondo. Thank you.
    Ms. Hirono.
    Ms. Hirono. Thank you, Mr. Chairman, and thank our 
witnesses for being here today. And I would especially like to 
thank Captain Hoyt who is taking time away from sailing the 
world on your sailboat and from captaining the Pride of America 
around Hawaii to be here in DC to share your thoughts with us.
    The cruise industry is growing in Hawaii, and that is a 
good thing. Last year over 125,000 people traveled to Hawaii 
via cruise ships and spent $34 million, a 52-percent increase 
over 2010. For most people a cruise to Hawaii or the Caribbean 
or other destinations is an important component of our travel 
and tourism industry which is responsible for millions of jobs 
nationwide.
    Unfortunately, the Costa Concordia and other incidents 
remind us that tragedy can strike at any time. I recognize that 
there is an ongoing investigation into this incident, and I 
recognize also, and that is why you are all here, that the 
industry is taking steps to insure the safety of everyone 
aboard their vessels.
    However, I would like to focus my questions on the matters 
of existing maritime law, some of which have been on the books 
for over 100 years. I think we owe it to the victims of these 
tragedies and their families to have a candid discussion about 
whether these laws still work and whether we should revisit and 
update them.
    So one of these laws is the Death on the High Seas Act, 
over 90 years old. Under this law, cruise passengers are only 
entitled to their economic damages. So that means that 
retirees, children, stay-at-home spouses, and low-income 
workers, in other words, people who have little or no economic 
value under the law, they are only entitled to the cost of 
their funerals or coffins.
    I would like to ask all of the panel members to just 
briefly respond to this question. Do you think it is equitable 
to deny maritime victims who die aboard your ships as a result 
of negligence the same protections that are afforded to those 
who die on land or in a commercial aviation accident on the 
high seas?
    Could you briefly give me your response, panelists? We can 
start from my left.
    Ms. Duffy. So the Death on the High Seas Act I would say is 
a very complex piece of legislation. I am not an attorney and 
not in a position to be able to comment here on the specific 
provisions or measures of DOHSA at this time. What I can say is 
that the cruise industry will certainly work with Congress to 
look at any specific piece of legislation that addresses the 
interests of our passengers and the concerns that you have 
expressed, just as we have done with the Cruise Vessel Security 
and Safety Act.
    Mr. Wright. Congresswoman, I am a marine operations guy, 
and it really just would not be appropriate for me to comment 
on this.
    Captain Hoyt. I am afraid I, too, am not that familiar with 
the Act, and it is outside of the scope of what it is I do on 
the ships.
    Ms. Hirono. Well, maybe we need another hearing, but be 
that as it may though, suffice to say that people who do not 
have jobs, who are retired, children, under this law they are 
pretty much headed off at the pass in terms of any kind of 
recovery, and this 100-year law I believe definitely needs to 
be revisited.
    I am sure that if you had your child, your parents, your 
retired parents on a ship----
    [Applause.]
    Ms. Hirono [continuing]. And were they to suffer death or 
injury, I am sure that you would want them to be fairly 
compensated.
    Mr. Chairman, I would like to enter into the record under 
unanimous consent a February 21st Reuters article that talks 
about the various kinds of laws that are currently on the books 
that need to be revisited with regard to liability and 
compensation for those who are injured on the high seas, death 
or injury on the high seas, Mr. Chairman.
    Mr. LoBiondo. Without objection, so ordered.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Hirono. I would also like to note for the record the 
testimony of Dennis Young, which was placed into the record, I 
believe, by my Colleague Larsen. That really focuses on making 
sure that there are the hiring of very qualified and trained 
longshore workers to perform the kind of handling of operations 
and loading and unloading operations that they are particularly 
trained for, since this entire hearing is about safety.
    I would also like to note, Mr. Chairman, that while our 
testifiers unfortunately are not able to respond to the 
specific sets of questions that I have, suffice to say that the 
cruise industry does have major protections that limit 
recovery. They are able to put into their contracts things that 
are called forum clauses that the U.S. Supreme Court has said 
are OK, and this has led to the cruise industry placing all 
kinds of other limitations on who people can sue, where they 
can sue, how much recovery, what they are entitled to recovery, 
and that is very unlike many other industries where a rather 
larger panoply of remedies are available to them.
    So thank you, Mr. Chairman, for allowing me to ask my 
questions. I yield back.
    Mr. LoBiondo. Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Schoeneman, how many SIU members work in the cruise 
industry?
    Mr. Schoeneman. I believe right now it is approximately 
between two and 3,000. I believe about two to 3,000. I will 
have to double check that number for you, Mr. Cummings.
    Mr. Cummings. Would you get that for me please?
    Mr. Schoeneman. Sure. Not a problem.
    Mr. Cummings. Clearly, Ms. Duffy, we learned something from 
this, did we not?
    Ms. Duffy. Yes, sir, we have.
    Mr. Cummings. And what do we learn from this incident?
    Let me tell you why I am asking you. This is not a setup 
question. CLIA, to its credit, decided that beginning on 
February 9th, that they were going to have this mandatory 
muster drills, and so that tells me that we learned something 
that caused CLIA to act so fast.
    And I am just wondering what did we learn and how was that 
decision made.
    Ms. Duffy. I think what we learned as part of the incident 
was that the muster policy, while the regulation allowed for 
that to be conducted within 24 hours, that we would better 
serve our passengers and safety by conducting the muster prior 
to departing the port so that people immediately have the 
safety information and know where to go and what to do in the 
event of an emergency.
    Mr. Cummings. And I am asking this of all the 
representatives of the cruise lines. Do you believe that the 
experiences that we heard about from the couple an hour or so 
ago could occur on a vessel that serves the United States 
waters? Could that have happened?
    Ms. Duffy. I do not believe that now that all of the muster 
drills are being conducted immediately at departure, prior to 
the departure. I think that people would have received the 
muster and known what to do with better direction.
    Mr. Cummings. But part of the testimony, too, though was 
that the crew did not seem to have a clue as to what was going 
on. You know, if you really think about it, when you get on a 
plane they tell you, you know, how to deal with the mask and 
seatbelts and all of that, but also the implication is that the 
airline folk, the staff knows what to do, and that situation on 
the Hudson a few years ago where they were able to land a plan 
miraculously and everybody got off in the water, they said that 
a lot of that was due to staff being prepared to do what they 
had to do, and that if they had not been prepared, those people 
would be dead.
    So I am just trying to figure out what about that part of 
it, the training piece? You heard their complaints about not 
the training, but nobody seemed to know what was going on.
    Ms. Duffy. Unfortunately, it would be inappropriate for me 
to speculate on what happened specifically with the crew or the 
training related to the Concordia incident.
    Mr. Cummings. Well, let's talk about yours. You talk about 
yours.
    Ms. Duffy. I can say that all seafarers are trained in 
accordance with the International Maritime Organization 
standards that are outlined in the STCW, which is the 
International Convention on Standards of Training, 
Certification and Watchkeeping for Seafarers, and that every 
officer for both navigation and engineering holds certificates 
of competency. All of the seafarers on the deck and the engines 
also hold certificates of proficiency, and as Captain Hoyt 
described, there is ongoing and regular safety drills and 
training that crew is provided.
    Mr. Cummings. And anybody else?
    Mr. Schoeneman. Mr. Cummings, I would say I feel fairly 
confident in saying that if this had happened on a U.S.-flag 
vessel the outcome would have been much different.
    Mr. Cummings. A little bit louder. I did not hear you. I am 
sorry.
    Mr. Schoeneman. That if this had happened on a U.S.-flag 
vessel, the outcome would have been much different.
    Mr. Cummings. And how so?
    Mr. Schoeneman. I believe that our members are trained and 
able to communicate effectively amongst themselves and with the 
passengers, and we would have been able to get our folks off 
the ship with a minimal loss of life.
    Mr. Cummings. I see. Anybody else?
    Captain Hoyt. Mr. Cummings, I would also like to add that 
in terms of safety, there is never any room for complacency. 
This is something that we need to always be evaluating and 
reevaluating over the process.
    I would like to add that having commanded ships both in the 
international and the U.S. flag, that I would stand by the 
crews that I have had under both flags in Norwegian and their 
abilities to respond in an emergency.
    Mr. Cummings. So going back to you, Ms. Duffy, just one 
last thing. Mr. Chairman, just one last thing.
    Ms. Duffy, you have got a C-SPAN audience here. What would 
you say to them? You know, you have got people now who do not 
have a lot of money. They are trying to eke out a little 
vacation. They are probably planning right now for when their 
kids get out of school. What would you say to them about the 
cruise industry in light of all that we have heard?
    This is your moment.
    Ms. Duffy. As I said, on behalf of the industry, that the 
Concordia incident is a terrible tragedy, and the cruise 
industry does extend our condolences to everybody that was 
affected. I hope that you can see the industry has been very 
proactive and transparent in immediately calling for the 
operational safety review, and that we have already begun to 
proceed with policies that have been implemented already.
    The cruise industry remains one of the very safest 
recreational activities and travel options. If you look at the 
safety record of the industry over the past decade prior to 
this incident, and I think we heard from Vice Admiral Salerno 
this morning, who also spoke to the strong safety record of the 
industry. The level of training, experience, investment in 
technology and innovation that has happened over the last 
decade as we have seen the cruise industry grow globally I 
think stands as testament to the safety, the commitment of our 
members to safety as our top priority. Otherwise we would not 
have a successful business.
    Not only is it the right thing to do, but we continuously 
focus on ways that we can improve the record that we have.
    Mr. Cummings. Thank you very much.
    Mr. LoBiondo. Thank you, Mr. Cummings.
    Without any further questions, I want to thank the current 
panel and the previous panels very much. As I think everyone 
can tell, this will be an ongoing situation for the 
subcommittee.
    We will have a lot of questions that we need answered to 
see where we go from here, but we appreciate your involvement.
    The committee stands adjourned.
    [Whereupon, at 12:55 p.m., the subcommittee was adjourned.]

</pre></body></html>
